<html>
<title> - [H.A.S.C. No. 112-13]ARE WE READY? AN INDEPENDENT LOOK AT THE REQUIRED READINESS POSTURE OF U.S. FORCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-13]

ARE WE READY? AN INDEPENDENT LOOK AT THE REQUIRED READINESS POSTURE OF 
                              U.S. FORCES

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 3, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE
65-113                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Lynn Williams, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant







                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 3, 2011, Are We Ready? An Independent Look at the 
  Required Readiness Posture of U.S. Forces......................     1

Appendix:

Thursday, March 3, 2011..........................................    37
                              ----------                              

                        THURSDAY, MARCH 3, 2011
ARE WE READY? AN INDEPENDENT LOOK AT THE REQUIRED READINESS POSTURE OF 
                              U.S. FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Representative from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

deLeon, Rudy, Senior Vice President for National Security and 
  International Policy, Center for American Progress.............     5
Donnelly, Thomas, Resident Fellow and Director, Center for 
  Defense Studies, American Enterprise Institute for Public 
  Policy Research................................................     7
Eaglen, Mackenzie, Research Fellow for National Security Studies, 
  The Heritage Foundation........................................    11
Mahnken, Dr. Thomas G., Professor of Strategy, U.S. Naval War 
  College........................................................    13

                                APPENDIX

Prepared Statements:

    deLeon, Rudy.................................................    42
    Donnelly, Thomas.............................................    50
    Eaglen, Mackenzie............................................    65
    Forbes, Hon. J. Randy........................................    41
    Mahnken, Dr. Thomas G........................................    82

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    95
    Mrs. Hanabusa................................................    99
 
ARE WE READY? AN INDEPENDENT LOOK AT THE REQUIRED READINESS POSTURE OF 
                              U.S. FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, March 3, 2011.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Well, I want to start by welcoming this 
exceptional panel of witnesses that we have before the 
subcommittee and to thank you all for joining us today for what 
I believe is going to be an incredibly important hearing.
    Hopefully, our Members will be streaming in, because I 
think this is going to be a very important hearing to lay the 
foundation for what we are going to be doing for the rest of 
the next several months anyway.
    One of the things that we recognize is, nearly 12 years 
ago, this subcommittee met to hold a hearing on readiness 
regarding the Army AH-64 helicopter fleet. The spring and 
summer of 1999, we were involved in combat operations with NATO 
[North Atlantic Treaty Organization] allies in Kosovo. And you 
can see the helicopter up on the screen.
    Chairman Bateman and Ranking Member Ortiz held a hearing on 
the readiness of the Apache fleet, because an internal Army 
memo had been leaked to the press. That memo was written by 
then-Brigadier General Richard Cody, and it showed 
shortcomings, training failures, and readiness issues 
associated with the Apache fleet and specifically related to 
the deployment of the 24 AH-64s as part of the Task Force Hawk.
    In the reviews that followed, the GAO [Government 
Accountability Office] found 146 lessons learned, which ranged 
from insufficient training to the need for additional 
capabilities such as night-vision devices and improved command-
and-control capabilities.
    However, interestingly, Congress had been told previously 
that the unit that was deployed was C-1, or fully combat-
mission-capable.
    Today, we are here to talk about the readiness of the 
force, not just the readiness of today's force, but the force 
we will need to deal with global challenges the next decade and 
beyond.
    If you flip from the Apache helicopter we talked about 
there and look to today's concern in the Pacific, something 
that I know is near and dear to the ranking member's heart, it 
is clear that we can't afford another Task Force Hawk 
situation, where we are told we are ready and we wake up to 
have hearings after that where we find out that we were very 
insufficient in our preparations and our preparedness.
    We have a constitutional responsibility that none of us 
take lightly, but we must be informed if we are to successfully 
provide for the defense of this Nation. We learn all too often 
about critical shortfalls not from the military, not from the 
DOD [Department of Defense], but from leaked press reports, 
whistleblowers, and generals after they have retired.
    Today we have a wonderful panel of witnesses to help us not 
only frame the challenges for the future but to also help this 
subcommittee ask the right questions and to get the answers we 
need to make critical resourcing decisions in extraordinarily 
challenging times.
    Joining us today are some individuals who served on a 
panel. And I want to commend to everybody's reading, if you 
haven't, the Quadrennial Defense Review [QDR] Independent 
Panel, the report that was published. This was an incredibly 
bipartisan effort.
    I want to commend all of you for your work on creating, 
one, a consensus that I know is very difficult in today's world 
to reach, but, secondly, the thorough analysis in the job that 
you have done; and commend to each of our committee members, if 
you haven't read this, I think it is good reading. And we have 
provided you with executive summaries that I think you will 
find useful.
    Today we have joining us Mr. Rudy deLeon, the senior vice 
president for national security and international policy at the 
Center for American Progress; Mr. Thomas Donnelly, the resident 
fellow and director of the Center for Defense Studies at the 
American Enterprise Institute for Public Policy Research; Ms. 
Makenzie Eaglen, the research fellow for national security 
studies at The Heritage Foundation; and Dr. Thomas G. Mahnken, 
professor of strategy, U.S. Naval War College.
    I just gave you what they are now. You each have in your 
memos their biographies, which I suggest you look at because 
they are very telling on the expertise that we bring to this 
panel today.
    I also wanted to suggest that this is one of the most 
bipartisan panels--I am sorry--one of the most bipartisan 
subcommittees, probably, that we find in Congress. We hope to 
do some things this year that are out-of-the-box. We want to 
get to answers, and we don't want to go through the formats.
    Historically, on our hearings, what we normally do is we 
bring in three generals and an admiral, and we spend the first 
few minutes telling them what a wonderful job they have done in 
serving the country. They next spend the next 10 minutes 
telling us what a great job we have done in supporting the men 
and women in uniform across the globe. Then everybody has a 5-
minute window. Our witnesses oftentimes feel like they are in 
depositions where their goal is just to get out without saying 
anything. And we ask our questions in staccato.
    We want to change that. It is my hope that we will have the 
support of the ranking member, at some point in time, so that, 
rather than be in those boxes, that we are bringing witnesses 
in here where we are not asking them for formal statements, we 
are not having just prepared statements, but we can really get 
at the answers that we need to make sure we have answered one 
crucial question: ``Are we ready?'' And we have to make sure 
that we are doing that.
    I want our Members to feel as free as possible, if you have 
follow-up questions, if you want to explore an issue, that we 
can do that, so that you don't feel you are in those confines 
of normal structure.
    So, with that, I would like to now turn to my dear friend 
and colleague and somebody that I know that is very concerned 
about the readiness of this Nation, especially in the Pacific, 
and that is Madeleine Bordallo from Guam.
    Ms. Bordallo.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 41.]

  STATEMENT OF HON. MADELEINE BORDALLO, A REPRESENTATIVE FROM 
        GUAM, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Mr. Chairman, thank you. And thank you for 
your leadership of this very important subcommittee.
    To all our witnesses, thank you for appearing before our 
subcommittee today.
    As the United States continues to be engaged in two wars in 
Iraq and Afghanistan, our military continues to experience 
significant readiness strains across the spectrum of 
capabilities. Further, larger fiscal matters in our Federal 
Government continue to squeeze the Department of Defense 
budget. Pentagon leadership is looking for places to find 
efficiencies, and, historically, the operation and the 
maintenance budget is a favorite target, given its size and 
availability.
    The QDR and the Global Defense Posture Report have outlined 
an ambitious, yet realistic, defense posture that will be 
needed over the coming years. So it is important that we find 
balance in equipping, training, and positioning our force to 
deal with emerging threats abroad, such as Al Qaeda in the 
Arabian Peninsula or the extremist disturbances in Indonesia or 
the southern Philippines, which is right next-door to Guam. 
However, as a nation, we must not lose focus of more 
traditional threats that face us, such as Iran's and North 
Korea's nuclear programs or China's nontransparent military 
buildup.
    Being a global power is not easy, nor can it be done 
cheaply. The QDR and the Global Defense Posture Review provided 
this Congress with a guideline for allocating resources over 
the coming years to deal with a multitude of threats.
    Every defense budget since the beginning of budgets has 
assumed a certain amount of risk. The Department has been 
cautious over the past few years in the amount of risk it has 
accepted, while trying to balance the needs of the ongoing wars 
with the other threats that exist to our country.
    At the outset of the wars in Afghanistan and Iraq, I 
believe we took too much risk, and the consequence was an 
under-equipped and ill-trained force for the type of wars that 
we are now conducting.
    Even as we depended upon them more and more to provide 
critical, enabling capabilities, National Guard units across 
this country were left with paltry equipment levels. It took 
congressional action and oversight to provide them with the 
equipment they needed to train for the missions they would be 
performing in both Iraq and Afghanistan.
    I recognize that we are not always at 100 percent fill for 
equipment, but we have done our best to apply resources to 
address the levels of risk that exist in the budget. I think 
the key is providing enough flexibility so that as threats 
emerge, the military can adapt and respond quickly and posture 
itself to protect our interests.
    The military buildup on Guam is a perfect example of how 
defense and posture reviews can lead to net positive benefits 
for our strategic posture across the globe. Making our military 
capabilities on Guam more robust allows us to defend against 
North Korean aggression, as well as counter the secretive 
buildup of Chinese forces. The strategic location of forces on 
Guam sends a very clear signal to our allies in the Asia-
Pacific region that we remain their partner and a power in the 
Asia region.
    Similarly, a buildup of forces on Guam also allows us to 
address threats that may arise in Indonesia or the southern 
Philippines, not to mention humanitarian assistance missions to 
our Pacific island partners and other hotspots in the region.
    The military buildup on Guam is not without its challenges, 
but it is the right thing for our Nation and the right thing 
for Guam. We just need to get it done right.
    And to that end, I do have some concerns about the 
reduction in operation and maintenance funding across all the 
services in fiscal year 2012, as compared to 2011 levels. We 
need to examine these funding levels through the lens of 
strategic documents like the QDR and the Global Defense Posture 
Report and not lose sight of our emerging capability needs 
across the globe.
    I would be interested to learn more from our witnesses 
today on what they think can be done to strengthen the QDR and 
the global posture review process. In some cases, these 
documents have been seen merely as budget drills. So what can 
Congress do to strengthen the process even further? I 
appreciate the work of the committee in creating a QDR review 
panel, but what other ideas should we consider in the future?
    Again, I thank you, Mr. Chairman, and look forward to the 
testimony from our witnesses.
    Mr. Forbes. Thank you, Ms. Bordallo.
    And now we are going to hear from our witnesses. And we are 
going to go in alphabetical order, if that is okay with the 
witnesses. And we are going to start with Mr. deLeon.
    And thank you so much for being here today.

 STATEMENT OF RUDY DELEON, SENIOR VICE PRESIDENT FOR NATIONAL 
SECURITY AND INTERNATIONAL POLICY, CENTER FOR AMERICAN PROGRESS

    Mr. deLeon. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate this chance to come and testify 
before the House Armed Services Committee [HASC] today.
    And, certainly, as many know, I have a long-time 
relationship with the committee, but I was staff director of 
the committee so long ago that Mr. Reyes is probably the only 
Member that remembers me from that tenure. But it was a 
remarkable time, the tenure of President Reagan and many other 
things. So I certainly welcome this opportunity to testify 
today.
    The four panelists, we are used to working with each other 
in a bipartisan way. We have different perspectives, and we 
will bring different views that I pledge will be interesting 
and, I think, informative to the committee. But I think what 
also--even where we disagree, we have a track record of finding 
the consensus, which I know is at the heart of what the Armed 
Services Committee does.
    I would just like to take a few minutes--we each have 
formal written statements, if we can just submit them--and I 
will just make a few opening comments, because, ultimately, we 
want the engagement back and forth.
    One, I think we all acknowledge Secretary Gates has really 
appropriately focused the Department on the ongoing combat in 
Afghanistan and in Iraq. That was a key decision made. His 
tenure began in late 2006. We have seen the impact of his 
leadership in the combat AOR [Area of Responsibility]. But, at 
the same time, when we look at these budgets, these budgets are 
driven by ongoing combat.
    And when the QDR independent review looked at the budget, 
it was our job to, sort of, look beyond Iraq and Afghanistan to 
that period that will follow on. And so, that was the bulk of 
our work. Also, the QDR tasking coming from the Congress was 
not to be constrained by budget issues but to look at the big 
policy questions there.
    So, very briefly, what I would like to just cover are four 
key points in my testimony.
    One, we all agree the Asia-Pacific is critical. That is the 
new avenue of global commerce. And so we need new emphasis and 
new resources for the Asia-Pacific. The transparency of China 
is a key issue, the PLA [People's Liberation Army], and an 
element of our mil-to-mil dialogue. But Asia-Pacific is at the 
top of our list in terms of needing to focus strategically on 
that region, because the role of the United States in that 
region since the end of World War II has been absolutely 
critical.
    The rise of China, the balancing of historic tensions in 
Asia, the growth of their economies have all been made possible 
by the protection that the U.S. military, our diplomats, but 
particularly the men and women of our Armed Forces have given 
the region of Asia. It has been a unique period. And Asia, 
because of the American presence, has been divorced from many 
of the regional tensions which created conflict in the past.
    The second are what I will call new security concerns. That 
is cyber. That is homeland security; whole-of-government 
reforms to assist our troops in the field with capabilities 
coming from other executive branch organizations. And then the 
importance of prolonged mil-to-mil relationships. The 
challenges in Egypt right now--the U.S.'s military ability to 
talk to the Egyptian military has proven to be just a crucial--
a crucial set of skills.
    When the Soviet Union disbanded, it was the mil-to-mil 
relationship with some of the emerging democracies of the 
former Warsaw Pact--Poland, the Czech Republic, Hungary--that 
allowed for a solid democratic transition of those militaries 
that are now very capable NATO members. And the Prime Minister 
of Poland, who is now one of the leading spokespersons for 
NATO, was here in town to be acknowledged by the Atlantic 
Council this week. But, you know, this is a dramatic change 
from 1980 and the end of the Solidarity movement to the end of 
communism. But the mil-to-mil relationships are extremely 
important.
    The third issue that I have covered in detail in my opening 
statement is energy.
    Right now, you know, 50 percent of our energy exports come 
from this hemisphere, from Canada and Mexico at the top. As we 
go further south, some of the suppliers become more 
problematic--Venezuela. But 50 percent of our energy imports 
come from the Western Hemisphere, and that is a good thing. 
Slightly less than 20 percent come from the Persian Gulf 
region, a higher percentage coming from Africa.
    But, from a military perspective, the supply line of fuel 
is pivotal to the mobility of our forces. I know that there are 
initiatives that this committee created in the last several 
years to focus on the energy requirement. That is a key 
component of logistics. It is what makes the United States 
military unique.
    We are in a tense period, in terms of the price of energy, 
but we still control our destiny. But figuring out our energy 
strategy, particularly for our troops that are deployed, is 
going to be a critical challenge for us.
    Last piece, the U.S. economy as a component of national 
security. Meeting the readiness challenges of the next 20 years 
is dependent upon our country, the Department of Defense, 
working with Congress to really get our economic house back in 
order.
    Now, during my tenure at Armed Services and then later my 
tenure at the Department of Defense, I lived continuously under 
balanced-budget rules. The challenge to go from high deficits 
to a balanced budget really started in 1987 with the Gramm-
Rudman legislation that came from Senator Phil Gramm, Senator 
Warren Rudman. It was followed by an agreement in 1980 between 
President George Bush and negotiated largely with Congressman 
Gephardt here.
    But when you look at these in their conclusion, that 1990 
agreement really started a foundation moving toward a balanced 
budget. We have the Clinton initiatives in 1993 and then the 
negotiations in 1995 and 1996, which really lock us into a 
trajectory of a balanced budget that we realize in 1999. It was 
a lot of work to get there.
    The challenge was to keep military readiness high. The 
Armed Services Committee, throughout that period of the 1990s, 
did a number of reports. Mr. Spence's report to Secretary Perry 
in the early 1990s on readiness--I think Mr. Donnelly may have 
actually been one of the authors on that--was an important 
piece of the debate and the discussion.
    But my key point is that we really do have to get our 
budgets and our economy in order; that throughout the late 
1980s, throughout the 1990s, there were a series of very clear 
rules that applied government-wide that had a big impact in 
terms of focusing on spending.
    Just a last point on that, and I don't want to speak much 
longer here. Clearly, coming out of the--we have had very high 
defense budgets the last 10 years, but those budgets have been 
fundamentally different than the high defense budgets of the 
1980s. The 1980s defense budgets were largely investment 
budgets, and the budgets of the last decade have really been 
budgets to support military forces in the field and combat. And 
so they have been high on consumables.
    So you have been consuming a lot of personnel dollars, you 
have been consuming a lot of readiness dollars. The procurement 
numbers are coming up. But coming out of this period of 
significant defense spending, we need to acknowledge that these 
really have been budgets that have supported combat operations 
in the field and not the investment budgets of the 1980s.
    And then, finally, moving forward on the American economic 
challenge, you know, U.S. national security has long rested on 
the strength of our economy. If you go and read the NSC-68, 
which was the strategy early in the Truman presidency that 
really looked at the future, they had two big assumptions: an 
extremely capable military and a highly viable economy.
    And so the challenge, I think, in the readiness area, in 
addition to the line items of the budget, will be to move 
forward on the economic challenge of creating jobs, promoting 
competitiveness and innovation, while reducing the long-term 
budget deficits.
    That is a message that the rest of the world needs to know. 
This is a country that is capable of great things, that we are 
not in economic decline. And we need to send that message, 
because American national security leadership has been premised 
on our strength of global leadership, economically as well as 
from the national security perspective.
    So, Mr. Chairman, we appreciate--I do--this opportunity to 
testify.
    [The prepared statement of Mr. deLeon can be found in the 
Appendix on page 42.]
    Mr. Forbes. Thank you, Mr. deLeon.
    Now Mr. Donnelly.

  STATEMENT OF THOMAS DONNELLY, RESIDENT FELLOW AND DIRECTOR, 
 CENTER FOR DEFENSE STUDIES, AMERICAN ENTERPRISE INSTITUTE FOR 
                     PUBLIC POLICY RESEARCH

    Mr. Donnelly. Thank you, Mr. Chairman, and to the ranking 
member.
    I would echo what Rudy said about what a pleasure it is to 
return to our former place of employment. One may leave the 
committee staff, but emotionally and mentally it is hard to 
escape.
    I am also going to end up agreeing a lot with Rudy. I think 
one of the most disturbing elements of the QDR panel for Rudy 
was that he found himself too often in agreement with me. I 
have always known Rudy to be a closet neoconservative or at 
least a Truman Democrat, but I think Rudy hadn't faced that 
reality yet.
    But to turn to serious matters, I was impressed by both the 
opening statements because they went--both the question of Task 
Force Hawk and the question of the invasion of Iraq go directly 
to the questions that I hope you guys will consider when you 
are considering readiness.
    The most important question, and where we have fallen short 
so frequently in the post-cold war years, is when we ask the 
question, not are we ready by the metrics and the yardsticks 
that the Department produces, but are those yardsticks the 
right assessment of what our forces need to be able to do? The 
question is, what should we be ready for? And if we don't 
answer that question adequately, the other metrics are 
interesting but not really the right ones that we should be 
using.
    Also, interestingly enough, the QDR panel found itself very 
much in similar circumstances as we did our work. After we got 
the initial briefings on the QDR itself, there was widespread 
dissatisfaction among the members--a very distinguished panel, 
as Rudy said, bipartisan, even nonpartisan in its direction 
from Secretary Perry--about what the QDR process had produced.
    We recognized that we did not have the time nor the staff 
capability to replay the entire QDR process, so we were looking 
around for a set of measurements to understand what the 
requirements for U.S. forces were.
    And, actually, there was very spirited debate but pretty 
quick agreement that U.S. security interests remain constant 
over time, that the issues, the capabilities, and the interests 
of the United States don't change. Adversaries and enemies and 
allies and friends may change. Technological circumstances may 
change. But, certainly, in the post-World War II period, there 
is a remarkable consistency about what United States purposes 
have been.
    And we felt that was a pretty reasonable set of 
measurements for us to use about what our forces should be 
prepared to do. And my prepared testimony goes through that in 
some detail.
    I would also like to save--I have a good idea of what my 
colleagues are going to say, so I would like to just cherry-
pick a few of the things, if I may, in my brief remarks here.
    We found four, sort of enduring U.S. interests: the defense 
of our homeland, which includes, as Rudy suggested, our 
neighborhood--think of the Monroe Doctrine, for example--but 
larger North America, if you will; the ability to freely 
access, both for commercial purposes and when necessary in 
wartime, what are lumped together as the ``international 
commons.''
    Secretary John Lehman loathed that word and excised it from 
the panel report--basically, the freedom of the seas, the 
skies, of space, and now of cyberspace. That is where the life 
of the commercial trading system occurs, and those are the 
domains, if you will, that are essential not only for 
protection of the United States itself, but the means through 
which we project power abroad. If we can't deploy our forces by 
sea, by air, watch them and talk to them and provide them with 
intelligence and reconnaissance from space or communicate with 
them through the use of the Internet, then our ability to do 
what we have to do around the world is going to be severely 
constrained.
    And it was very much the conclusion of the panel that those 
commons, which have been the distinct American way of war, are 
now contested commons. And the more modern--as you, sort of, go 
through the progression from maritime to cyberspace, the more 
you go through that batting order, the more contested the 
domains are.
    We have also always worried about the balance of power in 
the vital regions of the world--in Europe, where we spent a 
century, two world wars, an immense amount of blood and 
treasure to produce what looks to be a durable peace and has 
allowed to us to draw down forces in recent years; and, 
obviously, in east Asia, as Rudy suggested and as others will 
comment; but also--and this is where I like to focus my 
remarks--on the greater Middle East, particularly now that we 
see the region actually--the peoples of the region, themselves, 
taking up the cause of individual freedom and liberty that so 
many Americans have sacrificed, including sacrificed their 
lives, for over the past generation, not just in the past 10 
years.
    The fact is, this has always been a volatile region. It is 
becoming more volatile now. Who knows how it is going to come 
out? But it will still be of critical interest to the United 
States and to the world.
    Rudy mentioned energy supplies. We are lucky in that a 
relatively small percentage of our oil actually physically 
comes from the Persian Gulf. But, of course, oil is a fungible 
commodity, it is a global market. And our most reliable allies, 
particularly in east Asia but also in Europe, depend on those 
energy supplies. And it is also critical to the developing 
economies of China and India.
    The entire world, and certainly the commercial world, the 
economic world, benefits from having a stable oil pipeline writ 
large, or energy pipeline, to which the Middle East contributes 
the largest amount, globally speaking, and which is critical 
for the world's economic progress and prosperity. We are 
obviously at a moment of fragile recovery, ourselves, here at 
home. We have seen gas prices spike in the last couple weeks. 
We can only imagine what an extended rise in gas prices and in 
energy prices would do.
    The notion that Iraq and Afghanistan are the final chapters 
of America's involvement in the region seems unbelievable to 
me. There were many chapters before 9/11. We put up with Saddam 
Hussein for 15 years and he made our lives miserable long 
before the invasion of Iraq in 2003.
    The same is true of Iran, which, as Rudy suggested, is on 
the verge, who can say exactly when, of acquiring a nuclear 
capability that would plunge the Gulf into even greater 
turmoil. And we see in places like Egypt, where luckily we have 
contacts, levers to ensure that the transition that comes is 
something that we can shape.
    But that is almost an exception that proves the rule. There 
is very little that we could do in Libya that wouldn't involve, 
again, a use of military force. And, again, whether that is 
wise or the right thing to do is not my point. The question is, 
we can see that it is already a question for our President.
    So, again, as we look forward and try to say what should we 
be ready for, the idea that we are not going to be somehow, 
someplace, in some way involved in the Middle East seems to me 
to be just a faulty planning assumption.
    And the one thing that we have seen since 9/11 is that we 
have not had that traditional two-war capacity to do many 
things at the same time. We had to essentially get to a point 
of culmination in Iraq before we could again focus adequate 
resources in Afghanistan. And let's hope those turn out to be 
durable successes in both cases. But, to go back to Rudy's 
tenure in the Pentagon and before, it is an expression of the 
win-hold-win force-sizing strategy.
    Just to go back and to conclude by referring to your 
opening remarks, Mr. Chairman, Task Force Hawk is a perfect 
example of what I am trying to get at. Those Apaches were 
probably perfectly ready to destroy the Soviet tanks in the 
Second Echelon that they had spent their entire lives in 
Germany preparing to do. But when they were asked to pick up 
and deploy in support of the Kosovo war or in support of 
Bosnia, they didn't have the logistics or the transportation or 
all the other support structures that they needed to survive in 
the muck and mire or to get there.
    Likewise, the invasion of Iraq in 2003 was as classic an 
example of mobile armored warfare as we will see in our 
lifetimes. Three weeks from crossing the line of departure to 
knocking down the Saddam statues in Baghdad is a remarkable 
accomplishment, probably moving faster than George Patton ever 
moved across France. But that wasn't the end of the story 
because it wasn't, obviously, the end of the war.
    So the problem in assessing readiness, really, in a 
strategic sense, is much less, are we meeting the benchmarks, 
the formal, narrowly defined benchmarks, that are currently 
being employed, but have we captured in our assessments and in 
our readiness metrics those things that really, truly reflect 
the tasks that we are almost certain to ask our forces to do, 
that flow directly from this assessment of our interests and 
add up in sum to a global set of challenges?
    And we have learned, again, much to our sorrow and pain, 
that what happens in the Middle East, although strategically 
connected to what happens in east Asia, may require an entirely 
different kind of force and will have to be things the U.S. 
military does simultaneously rather than sequentially.
    So, as you guys look at the question of the readiness of 
our forces, I urge you to take that one step back and ask, are 
the benchmarks, themselves, the right ones?
    Thank you for your time.
    [The prepared statement of Mr. Donnelly can be found in the 
Appendix on page 50.]
    Mr. Forbes. Thank you, Mr. Donnelly.
    Ms. Eaglen.

  STATEMENT OF MACKENZIE EAGLEN, RESEARCH FELLOW FOR NATIONAL 
           SECURITY STUDIES, THE HERITAGE FOUNDATION

    Ms. Eaglen. Thank you, Mr. Chairman and to the ranking 
member, for your unconventional approach to your first hearing 
of the year. I think it is just an outstanding way to take a 
step back, take a look at the big picture outside of the, you 
know, defense witness ``hearing in a box'' and really talk 
about things to think about for the future.
    I want to again thank Rudy for his leadership last summer 
on the QDR Independent Panel as our esteemed chairman on the 
Force Structure and Personnel Subcommittee, where we gained a 
lot of knowledge and experience into helping you answer these 
questions.
    I think Task Force Hawk is a powerful way to open this 
hearing, because the two primary findings from GAO, which is 
insufficient training and the need for additional capabilities, 
is exactly where we are in almost every, sort of, major area 
across the services today. And I am very concerned, like you, 
that the likelihood of this happening again is high and is 
getting higher.
    So Rudy and Tom very sufficiently laid out a snapshot of 
the world as it is, and I want to provide an overview of the 
state of our hard power capabilities, in particular our 
military to carry out a lot of things that might be asked of 
them.
    I was told by a senior Special Forces official recently 
that if you look at a view of the world from space and America 
assesses the 50 most important nation-states on the planet 
Earth relative to the war on terror, whatever term you want to 
use there, they all have their lights out, for the most part. 
And we are talking countries very much like Afghanistan, which 
has, you know, very little infrastructure to begin with, but it 
goes much further beyond Iraq and Afghanistan. And it is 
something that, again, as Tom just said, you know, our efforts 
and interests around the world are not going to go away as we 
wind down in Iraq and we, hopefully, eventually wind down in 
Afghanistan.
    What have we been seeing across the force lately? As most 
of you know, we have a pretty old and geriatric and rusting 
force structure on the equipment side. And we have a grand 
experiment occurring on the personnel side, employing an All-
Volunteer Force for over 10 years in continuous operations, 
which has never been done since we stood it up in the early 
1970s.
    On the equipment side, not accounting for new systems like, 
for example, some helicopter rotary-wing platforms and some 
drones in particular, and leaving out some ISR [intelligence, 
surveillance, and reconnaissance] and coms [communications] 
capabilities, just looking at the major systems that we use to 
facilitate operations everywhere else around the world, our Air 
Force, Navy, and Marine Corps tactical aircraft are averaging 
50 to 25 years old, depending on which service we are talking 
about.
    The Army's armored personnel carriers are almost 30 years 
old. Bradley Fighting Vehicles are approaching 20 years old. 
Our cargo helicopters that we use heavily in Afghanistan are 
almost 20 years old; some have been upgraded, of course. Our 
helis are 35. Our cruisers are 20 years old. Our ORION long-
range aircraft that we use for ISR capabilities are 25 years 
old. Our bombers--our newest ones are 20, but our oldest ones 
are almost 50 years old.
    I actually heard a story just yesterday that some of the 
bomber pilots in the Dakotas--actually, their grandfather 
literally flew same plane.
    Our transport aircraft, our wide-body cargo aircraft are 
over 40 years old. And, as you well know, the tankers are 
almost 50 years old.
    What we are seeing across the services is the cross-
leveling of not just equipment, which is also known as the 
cannibalization, but of people, as well, to reorient for 
various missions and needs and to really scramble to match 
requirements in Iraq and Afghanistan. And this has a direct 
impact on the Reserve Component and on the National Guard and 
Reserves in each of your States and districts.
    As the ranking member noted in her opening statement, over 
the past 5 years, on average, most States in the country have 
had less than 40 percent of their Guard equipment on hand, 
available to respond to everything else that the military does, 
including hurricanes, floods, wildfires, and more. And there is 
a direct effect on the health of the Active Force and, of 
course, the Reserve Component.
    When you are cross-leveling people and equipment, 
everything from, you know, weapons systems like machine guns 
and handguns, to vehicles, tracked and wheeled, to helicopters, 
what that basically means is everything is upended in the 
readiness cycle as a result of this. And then you are having 
the units that are about to deploy, they are not able to 
actually train on their actual weapons systems in live-fire 
exercises as often as they need to be.
    In the last 4 years, we have seen less than half of all Air 
Force units that were fully mission-capable. The Navy, a couple 
years ago, discovered that two surface combatant ships were 
unfit for combat and had to hold what they called a ``strategic 
pause,'' where we basically halted the entire worldwide fleet 
of all of our surface combatants to assess their readiness 
levels, in the case that they were going to prove unready in a 
very embarrassing incident.
    We are also seeing the effects on training. You know, 
obviously our forces have been very heavily emphasized in 
counterinsurgency capabilities, and it is coming at the expense 
of most others, as well, including combined arms and jungle 
warfare and amphibious capabilities and operations, as well.
    The former chief of staff of the Air Force actually used 
the term ``ancillary training creep'' and I think that is 
actually effective for services like the Navy and the Air 
Force, in particular, that have to do things beyond supporting 
counterinsurgency operations. Their ability to prepare for 
other conflicts has been significantly degraded.
    Quickly, I will just close out by talking--using the 
Special Forces again, going back to them as a snapshot. I 
referenced the Air Force in my testimony as a case study in 
readiness and how unready we actually really are for, again, 
things much beyond Afghanistan, including, for example, a no-
fly zone over Libya, which would greatly challenge the military 
to undertake.
    Currently, we have more than 80 percent of our Special 
Forces deployed in one region, in Central Command. And they 
have been deployed at unsustainable rates since 2001. And what 
that means is it is coming at the expense of their jobs, for 
example, in Latin America and elsewhere around the world. Post-
9/11, our Special Operations Forces are twice the size, they 
have three times the budget that they had before 9/11, but they 
have more than quadruple the demand that was on them 
previously.
    Take, for example, the 7 Special Forces Group in Latin 
America, where they are supposed to be working right now. They 
have been carrying almost half the load in Afghanistan for 7 
years. So we are leaving behind all of these other areas of the 
world, which are not becoming any more safe and the areas of 
risks and challenges are not growing any less steep over time.
    Thank you.
    [The prepared statement of Ms. Eaglen can be found in the 
Appendix on page 65.]
    Mr. Forbes. Thank you, Ms. Eaglen.
    Dr. Mahnken.

STATEMENT OF DR. THOMAS G. MAHNKEN, PROFESSOR OF STRATEGY, U.S. 
                       NAVAL WAR COLLEGE

    Dr. Mahnken. Great. Thank you, Mr. Chairman, Ranking 
Member, members of the committee. Thank you for inviting me 
here to testify this morning.
    Mr. Chairman, in line with your intent, I would like to 
keep my opening remarks brief and to submit my written 
statement to the record.
    In the brief time I have, I would like to cover four 
topics: just a few words about maybe how we should think about 
readiness from a strategic perspective; then to zoom in and 
focus on one particular contingency, the need to deal with 
China's military modernization and development of anti-access 
capabilities; third, to talk about our readiness to counter 
China's anti-access capabilities; and then, hopefully, to end 
on somewhat of a note of opportunity for us.
    So, on readiness, as someone who has spent a career 
studying, teaching, and practicing strategy, I am certainly 
sympathetic to those who face the challenging task of trying to 
ensure that U.S. Armed Forces are ready to face the full 
spectrum of challenges that we do face.
    And I certainly applaud Secretary of Defense Gates' call to 
achieve a balanced defense capability, even as I acknowledge 
that achieving balance is extremely challenging. It requires us 
to balance the certainty that American soldiers, sailors, 
airmen, and marines are in combat today and will be in combat 
tomorrow against the possibility of other contingencies, 
including great-power conflict, contingencies that may be of 
lower probability than the certainty of today's combat but 
would have extremely high consequence.
    And, finally, I think we need to acknowledge that readiness 
involves not only preparing for and fighting today's wars but 
also reassuring our allies and deterring aggressors in order to 
prevent war. And back to Tom Donnelly's comments, I think, you 
know, these are some of the criteria we should use to assess 
our readiness.
    Certainly, the strategic environment that we face today 
further complicates the task. We face challenges all the way 
from nonstate terrorist organizations, such as Al Qaeda and its 
associated movements, up to regional rogues, such as Iran and 
North Korea, up to China's military modernization.
    Let me focus on one of those challenges, I think a 
particularly stressing challenge: that posed by China's 
development of anti-access capabilities. As Rudy mentioned, the 
QDR Independent Panel identified a number of challenges that we 
face; it also identified a number of shortfalls in U.S. force 
structure. I want to focus on Chinese anti-access capabilities.
    This is a matter of some urgency since China is, for the 
first time, close to achieving a military capability to deny 
the U.S. and allied forces access to much of the Western 
Pacific Rim. China's military modernization calls into question 
a number of assumptions upon which the United States has based 
its defense planning since World War II.
    Specifically, the assumption that the United States will 
enjoy an operational sanctuary in space is now in question due 
to China's development of anti-satellite and other 
capabilities--capabilities that are adequately documented in a 
series of DOD reports to Congress on Chinese military power 
over the years.
    Second, the assumption that U.S. bases in Guam and Japan 
and elsewhere will be secure from attack is also increasingly 
open to question, due to China's development of ballistic and 
cruise missile systems and other capabilities.
    Third, the assumption that U.S. naval surface vessels can 
operate with impunity in all parts of the western Pacific--also 
open to question, due to the development of a range of 
capabilities on the part of China.
    And then, finally, the assumption that in a crisis U.S. 
information networks will remain secure--also open to question, 
given China's cyber capabilities.
    These developments have profound implications for U.S. 
national security. We have, since the end of World War II, 
based our defense strategy on the combination of forward-based 
forces to deter adversaries and reassure our friends and the 
projection of power from those bases and the continental United 
States to defeat foes in wartime. The spread of anti-access 
capabilities calls that formula into question.
    Well, in response to these developments, the QDR 
Independent Panel argued that the U.S. force structure needs to 
be increased in a number of areas to counter anti-access 
challenges. Specifically, the panel called for an expansion of 
the U.S. surface fleet, the acquisition of additional attack 
submarines, replacement for the Ohio class cruise missile 
submarines, an increase in our bomber force, and an expansion 
of our long-range precision-strike capabilities. Those were 
among the recommendations of the panel.
    With the time I have left, let me just outline very briefly 
some opportunities in addition to the panel's recommendations. 
Because I think the United States has opportunities to work 
with our all allies and our friends to ensure security in the 
Asia-Pacific region.
    First, are opportunities that would come from developing a 
coalition intelligence, surveillance, and reconnaissance 
network in the western Pacific to help reassure our allies and 
friends and generate collective responses to crisis and 
aggression.
    The second is the need to harden and diversify our network 
of bases in the Pacific. I believe we need to harden our 
facilities on Guam, we need to harden our facilities at Kadena 
in Japan. And we also need to be looking at a much broader and 
more diverse set of bases in the region.
    Third and finally, I think we need to look for ways to 
bolster our submarine force and to work to link together our 
submarine force with those of our allies and our friends in the 
region. Undersea warfare is a comparative advantage for the 
United States and for many of our allies and one that is likely 
to be of increasing relevance in the future. And we need to 
think about creative ways that we can work with our allies to 
bolster our undersea capabilities.
    In closing, I would like to go back to something that Mr. 
deLeon said about the deficit and about spending. None of the 
moves that I have outlined in my remarks would be free, but 
some of them could be undertaken with modest cost. And I 
believe that we need to think about the cost of recapitalizing 
our military, but, in doing so, we also need to consider the 
price for not recapitalizing. And, in the long run, that cost 
is likely to be much greater.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Dr. Mahnken can be found in the 
Appendix on page 82.]
    Mr. Forbes. Thank you all.
    And I am going to defer most of my questions until the end, 
so we can let other Members ask questions.
    But I just wanted to get started with--we have the QDR, 
which is our major defense lay-down and strategy. And, of 
course, Congress, I think very wisely, set up the independent, 
bipartisan panel to look at the QDR and say, are we on the 
right track or the wrong track? There are three statements that 
came out of that panel that I would like to just read for you 
and ask your comments on.
    I want to start at the end, where you said this statement. 
You said, ``The panel's assessment is that the budget process 
and current operational requirements, driven by the staff 
process and service priorities, most likely shape the QDR far 
more than the QDR will now shape processes and drive future 
budgets and program agendas.''
    I want to overlay that on one that got my attention right 
off the bat, when you said, ``The aging of the inventories and 
equipment used by the services, the decline in the size of the 
Navy, escalating personnel entitlements, overhead and 
procurement costs, and the growing stress on the force means 
that a train wreck is coming in the areas of personnel, 
acquisition, and force structure.''
    I would like your comments on those two statements, if you 
would. And compare that with--yesterday, the Secretary of the 
Navy was here, and I asked him about that statement. And he 
said that the only difference between the numbers the Navy has 
for ships and the number the panel had for ships was the way 
they counted the ships, and there really wasn't any difference.
    Can you just give me your thoughts on those statements?
    Mr. deLeon. Well, yes. One, on the QDR process itself, I 
think the members of the commission felt that there were times 
where there had been dramatic strategic reviews--Reagan 
Administration in 1981, the base force of Secretary of Defense 
Cheney and General Powell in 1991, the Bottom-Up Review in 
1993. And then, in the other times, the QDR process had been 
process-driven more than strategically driven.
    So I think one of the points was that the QDR may come too 
early in a new Administration. When we go through a transition 
from one Administration to the next, the legal requirement is 
for the QDR to come in year one. The challenge of staffing up a 
new Administration in the key Pentagon jobs and the speed with 
which the other body occasionally acts on the confirmation 
process means too many things just happen in that first year. 
So validating when the QDR needs to occur, it needs to be 
strategic. So that is point one.
    I think point two, we were concerned that, in terms of the 
number of ships--we chose our words very carefully. Steve 
Hadley, the former national security advisor, and I wrote that 
section, ``access to all of the international areas of the 
Pacific.'' And so that is a presence issue. It is probably 
maritime, because those are highly effective mobile platforms.
    And so, you know, I think what we were emphasizing was you 
need to make sure you have the force structure for the Pacific, 
and you need to make sure that you have the strategy for the 
Pacific.
    We did not get into a bean-counting on the number of ships. 
Our concern was that, again, not that the cost of the ships may 
be as much a constraint as the budget that is available for the 
ships, but that, clearly, if we were trying to prioritize, we 
would say the Pacific is the area where you have to prioritize.
    Mr. Forbes. Mr. Donnelly.
    Mr. Donnelly. To take the questions in reverse order, I 
would stand by the panel's ship number, which was thoroughly 
scrubbed by John Lehman, who knows how to count ships. That is 
one thing he knows extraordinarily well. I think that this has 
been a Pentagon talking point and critique of the panel report 
since it was released. And I think, as a matter of analysis, we 
were right and they weren't. But to walk through all the 
details would be mind-numbing.
    I want to just also totally agree with Rudy in terms of the 
panel's analysis of the QDR process. I was on the committee 
staff when the QDR legislation was written, and, in many ways, 
our model was the Les Aspin Bottom-Up Review that Rudy knows 
inside and out. And the, kind of, anomalous point of that was 
that Mr. Aspin uniquely, when he became Secretary of Defense, 
had been thinking about these issues, preparing for them and 
holding hearings when he was chairman of the full Armed 
Services Committee. So he came into office with that strategic 
set of viewpoints that Rudy references.
    There is a recommendation in the panel report, if I recall 
rightly, for setting up sort of a senior advisory group that 
would be available to a new Administration to sort of help them 
get their strategic sea legs as they came into office and 
prepared to do an appropriate defense review.
    But I think it was, as Rudy says, kind of a consensus view 
that the current process was not working, and the absence of a 
genuine strategic understanding and guidance had reduced the 
process to a budget drill.
    Mr. deLeon. Just two quick points. One is that the review 
process has not been working for a while, throughout the last 
decade. And I think counting ships, I think your description 
may have been a bit simplistic, Tom. So I think there is an 
area for discussion that the committee needs to probe in terms 
of how many of the ships in the pipeline are combatants, how 
many are support ships?
    But in terms of the critical presence issue, again it is a 
reorientation. It is a focus that across the Pacific, that is 
the new lines of commerce globally. That is where the critical 
issues are. And so you have got to look where are the resources 
going. We have also got to ask where are the resources going 
when our allies in Europe are significantly ratcheting their 
budgets down? So how much of our responsibility for their 
security do we continue to maintain? We have got this growing 
issue of access to the international areas of the Pacific at a 
time when we still have considerable resources aimed toward 
Europe, and our European allies are reducing their 
expenditures.
    Mr. Forbes. Ms. Eaglen.
    Ms. Eaglen. Yes, I agree, of course, with the findings. 
What we have seen in the last 10 years largely is a shift in 
funding and priorities within the Department to focus on 
prevailing and current operations, which is commendable, and 
clearly common sense. The problem is that it is coming at the 
expense of preparing for the future. And I would argue that in 
many ways the future is now. It always seems like it is so far 
out, and a lot of the challenges that we are seeing come on 
line from the capabilities around the world that friends and 
foes alike are building presents it now.
    But I do want to talk about just again the snapshot of the 
armed services. We have the smallest Navy that we have ever had 
since 1916, and we are asking it to do about 400 percent more 
than it has ever done in the past. We have the oldest Air Force 
in the history of the country since its inception in 1947, all 
of its fighters, cargoes, bombers, tankers, trainers. The Army 
has skipped three generations of modernization, and the last 
one which was canceled, the FCS [Future Combat Systems], even 
though there is a potential replacement hopefully coming online 
soon, was the only ground vehicle improvement that the Army has 
had in 60 years.
    So I don't want to overstate the challenges, but that is 
the reality. We can't talk about the world as it is and what is 
required unless we actually talk about also the state of the 
military.
    Now, the QDR Independent Panel--if I can speak for them, 
Rudy might jump in--used the rough metric of the Bottom-Up 
Review as a good assessment of a starting point specifically 
because that was what we thought, what they--leaders, 
policymakers thought was needed at a time when we expected the 
world to be a much more peaceful place. How could we need 
anything less than that today is really what the message that 
we are trying to send.
    And to the CNO's [Chief of Naval Operations'] point, which 
actually the 2012 budget came in pretty strong for 
shipbuilding. I am thrilled about that. I think there is an 
understanding that there is a true bipartisan consensus to grow 
shipbuilding and a genuine need to do that.
    But analysis across the board from the CBO [Congressional 
Budget Office] to CRS [Congressional Research Service] and the 
Center for Naval Analysis will find that while our battle force 
fleet is about high 270s, low 280s in terms of ship numbers, we 
are really on a glide path to building a 220-ship Navy when you 
add it up and you project it forward. So I would not even focus 
on the 346. I would focus on what we are buying today, and if 
you carry out linearly, just where does that get you? We are in 
danger of a 220-ship Navy.
    And I would close with just some thoughts on the process, 
on the QDR process. The HASC took real leadership in standing 
up the independent panel. The National Defense Panel was sort 
of a model for this, which you had done one time in the 1997 
QDR process. And I think it is wise to consider making a 
standing national defense panel a permanent entity. It can 
shift in terms of its membership and all of that sort of thing, 
but one that actually informs the QDR process before the 
Department gets under way so that you can get out of some of 
that group think.
    Mr. Forbes. Dr. Mahnken.
    Dr. Mahnken. I would echo what my colleagues have said 
about the panel's recommendation of 346 ships versus the 
programmed or the planned 313. I think, as Mackenzie said, we 
did look back to the Bottom-Up Review as a blank-sheet look at 
U.S. requirements for a more peaceful era than we see today. I 
think there was a general sense that the current force 
structure is likely to be insufficient given the challenges 
that we face.
    As to the QDR process, I am in the unique position of 
having played a minor role in the 2006 QDR, run the office that 
did a lot of the preparation for the 2010 QDR, and then being 
on the QDR Independent Panel. My general observations are two. 
First, Quadrennial Defense Reviews, their success is directly 
proportional to the amount of time and effort the most senior 
leadership of the Department is willing to commit. And I think 
that goes back to Mr. deLeon's point that there have been 
dramatic changes in our defense strategy, but those have really 
occurred when the President and the Secretary of Defense are 
directly, directly involved. At other times, things go less 
well.
    As to the timing, I am one of those people that believes 
that the current timing is probably the least bad option. The 
QDR used to be submitted earlier, and I think the experience 
was that a new Administration didn't have all of its folks in 
place and could not really put its stamp on the review. If you 
wait later, which I think sort of sound analysis would say you 
want to take longer and so forth--if you wait later, you are 
really into the Administration's second or third budget going 
up before Congress, and there is very limited ability for the 
Administration to shape things.
    So I am not a fan of the process, having been a part of it 
multiple times, definitely not a fan of the process, but I 
would say that the current timing at least is the least bad 
option out there.
    Mr. Forbes. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. And again, thank you 
to all the witnesses. Each of your statements were very 
insightful, and some presented some daunting issues.
    So I would like to start with Mr. deLeon first. As you 
know, U.S. Pacific Command, as well as other commands, has 
extensive programs in the military to foster military-to-
military and military-to-civilian relationships in their 
respective AORs. You mentioned the Pacific region being a 
strategic area, and, of course, I have to agree with you on 
that.
    My question for you is this: With what other countries 
should the U.S. be expanding our relationships to enhance our 
partnerships? Also can you comment on the effectiveness, both 
geopolitical and budget-wise, of the National Guard State 
Partnership Program? How do you see this program playing a part 
in the mixture of tools available to a combatant command?
    Mr. deLeon. Thank you.
    You know, when we look at Asia, our military-to-military 
relationship with Japan is crucial, and it has become all the 
more crucial given some of the challenges going on in the South 
China Sea.
    Interestingly, we have a unique relationship developing 
with Vietnam. They are a critical country in the region, and 
that is one where we will do it step by step, but that is 
clearly an area, given their geographic position in Asia.
    India, the relationship is still developing, but they are a 
risen power economically. They have their own issues in terms 
of their relationships with both China and Pakistan. But that 
is another area of opportunity. And then at a core minimum, the 
United States needs to continue to press the PLA for some kind 
of dialogue. It is much different than the U.S.-Japan military-
to-military exchange. But there has got to be enough of an 
exchange so that both sides have the capacity to talk to each 
other when there is a crisis.
    We had one on the Korean Peninsula. The Americans like to 
talk when things are at the crisis level because it creates 
stability, it creates understanding. The Chinese don't. And so 
this is a problem as China continues its economic development 
and as it continues to develop military capabilities.
    But we start with those countries where we are in strategic 
alliance, and that begins with Japan, opening up with India. We 
have the model to follow. And I think our Army led right after 
the fall of--the breakup of the Soviet Union and those 
relationships that they had had informally that they were able 
to solidify with those Warsaw Pact countries that made for 
their rapid admission into NATO. But having those 
relationships--and you have to start them early. Young officers 
who become the leaders need to have those relationships when 
they are young.
    Finally, there are great roles that the Guard can play, 
particularly on the humanitarian missions to support the Active 
Duty Forces, as well as the fact that the National Guard units 
are now a key strategic reserve. In our tenures we have seen 
the Guard go from being sort of a backup contingency for a big 
war in Europe to being operationally able to deploy quickly. 
The committee has had a clear voice on this in the last 30 
years in terms of Mr. Montgomery and the Guard and the critical 
role that they play and the contingencies that they bring on 
the nontraditional areas.
    Ms. Bordallo. Thank you very much.
    Dr. Mahnken, I have a question for you. In your testimony 
you mentioned China's fast-growing anti-access capability--
which I certainly agree in your statement--and the correlating 
recommendations from the QDR which call on countering this 
threat by expanding the U.S. Navy surface and subsurface 
fleets, increasing the bomber force, and expanding our long-
range precision strike capability. These types of military 
weapons systems are often used in strategic environments, which 
are very different from those we have our men and women 
pursuing today in Iraq, Afghanistan, and elsewhere around the 
world.
    How would you recommend that we continue to use our 
military forces to defeat nonstate actors and other threats, 
while training them and equipping them for the future strategic 
threats that you mentioned? And what do you consider the single 
most important shift in readiness priorities from the 
Department that this committee should consider during this 
year's cycle?
    Dr. Mahnken. Thank you for that question.
    On dealing with nonstate actors and dealing with terrorist 
organizations, I think the most important role that the U.S. 
Defense Department will be playing and the services we will be 
playing as we move forward is in training and advising foreign 
militaries. I think in many ways as we look back, Iraq and 
Afghanistan will not be the typical way that we will go about 
it. I think the typical way we will go about it is the typical 
way we have gone about it in the past, which is to help 
governments that are under threat from insurgencies and 
terrorist groups to build up their capacity to defeat those 
threats.
    And certainly as we have seen in the Philippines, working 
with the Armed Forces of the Philippines strengthening their 
capacity, I think that is going to be a key role. And while in 
my remarks I focused a lot on naval and air capabilities for 
dealing with anti-access challenges, I think for the Army and 
for the Marine Corps, building the capacity to advise foreign 
militaries really is going to be key. It is not going to 
necessarily be the--you know, the majority of troops involved, 
but a very key part of the force structure.
    As Ms. Eaglen mentioned earlier, our Army Special Forces 
are the only part of the U.S. military that are recruited and 
trained with an expertise and selected based on their aptitude 
for dealing with foreign militaries, and I think strengthening 
that capacity is key.
    Now, you say single most important thing that the 
subcommittee can do, I would go back to dealing with China's 
anti-access capabilities. And again, there are a cluster of 
capabilities associated with that that you outlined, but then 
also improving our infrastructure and our basing 
infrastructure, and making sure that our bases in the Asia-
Pacific region are hardened and survivable I think is 
important. I think it is important for deterrence. I think it 
is important for reassuring our allies, and should there be a 
conflict, and I certainly hope there won't be, it will be 
important then, too. But the greatest value for these types of 
investments is in averting conflict.
    Thank you.
    Ms. Bordallo. Thank you very much, Doctor.
    I do have other questions, Mr. Chairman, if we are going to 
have a second round. Thank you.
    Mr. Forbes. The chair now recognizes the gentleman from 
Georgia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. And I would like to 
just make a general statement, and then I would like the 
committee members to respond as fast as possible.
    And I believe, and I think most believe, that well-trained, 
well-equipped soldiers with proper dwell time should be our 
priority, and they are the key to victory for us in any 
conflict that we go into. The Department of Defense and the 
generals in most cases say the same thing. Yet when we look at 
DOD proposals, the DOD has proposed to eliminate the number of 
soldiers or reduce the number of soldiers by 43,000 and to hire 
30,000 additional bureaucrats or procurement officers.
    DOD proposes to eliminate the C-17 buy, which is arguably 
the most important plane in our fleet with everything that we 
do with it. I can understand reducing the purchase if we have 
enough, but to totally eliminate it when you have already got 
the line up and running to me seems not a very wise thing to 
do.
    And they want a new bomber that they tell us they can't get 
to us before 2025. And if they follow their current track 
record, it will be somewhere closer to 2035 or maybe 2045 
before we get the new bomber.
    And my question is: There's an obvious disconnect here; 
what is wrong at DOD, and how do we fix it?
    Mr. Donnelly. I do not mean this as a flip answer, but DOD 
is an institution that is suffering from lack of guidance and 
not enough money to do all the things that it is being asked to 
do. I mean, it is a big bureaucracy, you know. They get a lot 
of money. But their tasks are larger than the force can handle.
    Mr. Scott. Can I stop you right there, because I want to 
hear other people. Okay. But they are proposing to eliminate 
approximately 45,000 soldiers and hire 30,000 bureaucrats. If 
we talk about their budget, they are going to spend a whole lot 
more and pay those 30,000 bureaucrats a whole lot more than 
they are going to pay the soldiers. So from a budget standpoint 
they don't seem to care what they spend.
    Mr. Donnelly. Actually I believe Secretary Gates has put at 
least a halt on expanding the civilian workforce. I am not 
quite sure that the original plan to hire additional 
procurement officers is going to proceed as originally 
announced by the Administration.
    I share a concern about Army and Marine Corps end strength 
cuts. We have seen this movie before. We always believe there 
will never be another land war, and then there is. So that is 
something that is deeply worrying to me.
    Mr. Scott. Would one of the others speak specifically to 
the decision to absolutely eliminate the C-17 buy and the value 
of that plane to our fleet, while at the same time pursuing 
another plane that they can't have to us before 2025?
    Ms. Eaglen. Absolutely. First let us start with the 
practical implication to permanently shutting down a line, 
which you have alluded to here, and the great costs of doing 
so, not just in the termination fees, but losing America's only 
wide-bodied cargo production line in existence.
    Mr. Scott. Absolutely.
    Ms. Eaglen. So it is not just the C-17, but you want the 
capability for more C-5s or C-130s or any one of these types of 
platforms that are incredibly--I mean, current operations grind 
to a halt without the ability to move people and equipment 
around the globe.
    We saw when the U.S. military responded to humanitarian 
operations in Haiti, C-17s along with the other wide-body cargo 
aircraft were diverted from missions in Afghanistan because 
there just simply aren't enough to do everything, as Tom has 
said.
    The benefits of this sort of strategic lift go beyond 
warfighting operations, of course, to every other type of 
mission, to building partner capacity, to the humanitarian 
assistance and more. The most interesting part about actually 
closing this line and then restarting it, if we choose to do 
so, which we usually find out after the fact that these are 
mistakes--the cost of closing down the line is about $6 billion 
if you want to restart it later.
    To answer your question, what we are seeing in the 
Department are budget-driven strategies, and so you have a 
short-term cost savings that appears as a cost savings, but it 
is really going to cost you more money in the long term; 
whereas if you have sort of stable, predictable Defense 
budgets, and you are building enough of everything, you are 
able to save money. But what they are saying is, we need this 
dollar to go here as opposed to here. And it is a shortsighted 
investment decision that ends up again costing you more, 
because what is not noted publicly by DOD are two things: the 
cost of termination of any major program. It is very expensive 
to pay the contractors when you say you are going to build 
this, and then you build fewer than that number; but also the 
cost of restarting, as I mentioned, and then what you have are 
the long-term--nobody talks about the fact that you are going 
to have to rebuild something again in the future.
    So, for example, take the Marine Corps Expeditionary 
Fighting Vehicle [EFV]. Yes, it saves money if you cancel it 
this year, but the Marine Corps still needs an amphibious 
combat vehicle. So we are not saving any money by not building 
it this year; we are just pushing that bill to next year or the 
year after.
    Mr. deLeon. May I, sir?
    Mr. Scott. That is up to the chairman. My time has expired.
    Mr. Forbes. Go ahead.
    Mr. deLeon. I think you are asking a good question, and you 
ought to ask that of the witnesses as they come. Maybe I will 
follow up and come and visit.
    On the civilian side as we deployed to combat, we were 
short the people in the field who can do contracting. This is 
logistics contracting. We ended up taking a lot of people out 
of the Corps of Engineers who would manage $50 million or $100 
million water projects, putting them into Iraq where they were 
supervising a billion dollars a week in logistics contracting. 
So it turns out that the people who can write contracts are 
fairly, fairly important to the effort.
    Mackenzie talked about the slow rate of modernizing, 
particularly Army procurement equipment. One of the things the 
Army needs to do a little bit better is to frame their 
requirements so that the government knows exactly what it is 
buying. I am not sure that they still have some of the 
technical expertise to specify what the exact composition of 
the vehicles are to look like, things like that.
    And so that is translating requirements to contracts, and 
it is hugely important to the warfighter who needs the 
equipment, and it is hugely important to the taxpayers because 
they need to pay a fair price for the equipment. So figuring 
out how to do that better, Mackenzie is right, we are living 
off of the M1s and the Bradleys and the legacy of those who put 
those in the pipelines as long as 30 years ago.
    Dr. Mahnken. Mr. Chairman, if I could just briefly, and it 
is on this issue of shutting down production lines. I think we 
need to have a strategic view of these types of decisions. And 
we should be looking not only at U.S. acquisition, but also 
foreign acquisition as well. That is just to take the C-17 
example. I could talk about other examples as well. We have 
sold a number of C-17s, and there are opportunities to sell 
more of them.
    I think in our planning we should be taking those export 
opportunities into account to hopefully try to keep these 
production lines, as Mackenzie said, the expertise in place to 
bridge the gap until the next time we use them. And I think 
that there are all sorts of opportunities to do that in other 
parts of our production capability as well, to include, you 
know, UAVs [Unmanned Aerial Vehicles], for example, and even 
maybe our submarine capabilities.
    I think we need to have that strategic view of our 
production capacity, because we have drawn it down. I think we 
have drawn it down to a point where you have maybe one or two 
providers of any particular capability. We are sort of at the 
ragged edge of where you want to be if you want to be 
competitive.
    Mr. Forbes. Thank you.
    I now recognize the gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Thank you for holding 
this hearing. I think we are just starting to scratch the 
surface of the many different issues that affect our readiness. 
For instance, I am always, I guess, perplexed that 40 years ago 
when I was in Vietnam, I was dodging the AK-47 and RPGs 
[Rocket-Propelled Grenades]. Today those are still a basic 
staple weapon that our troops are very much concerned about not 
just in Iraq, but today in Afghanistan and in different parts 
of the world.
    I got to Vietnam when the M-16 was an issue because it was 
jamming. It wasn't designed to be in the mud and the muck and 
all of that other stuff. I was in the 11 Bravo. I wasn't a 
grunt, I was a helicopter crew chief, but we carried them into 
battle, and so we heard all of those concerns, and some were 
openly saying we have got to kill the enemy and get their AK-
47s so we can defend ourselves.
    Now, why I mention that is because sometimes in our effort 
to modernize, to continue to modernize, we fail to see that 
sometimes the basic staple--now, the AK-47 doesn't work for our 
Special Ops troops. They carry weapons that have to be silenced 
and all of those other things. But a staple of the regular 
weapons has to be different.
    Which I guess the frustration I feel is that we shouldn't 
modernize for modernization's sake and to keep these things 
kind of self-perpetuating themselves. And one of the things 
that I have learned over the course of being on the 
Intelligence Committee and chairing that committee is the 
remarkable relationship today between intelligence and the 
military, you know, our soldiers and marines, because of the 
asymmetrical threats that exist against us.
    So earlier this week I asked General Casey, I said--you 
know, he is retiring, so General Dempsey, if the Senate 
confirms him, is coming in--what kind of guidance have you 
received to prepare our Army for future challenges? I am very 
concerned about reducing the end strength of the Army and the 
Marines, because the ones that pay the price are troops and 
their families. That is how we got into that--I can remember 
when I first got to Congress that the philosophy was the two-
war strategy--and I think you mentioned that, Mr. Donnelly, in 
your wrap-up, in your conclusion--which is no longer in vogue.
    But I would submit we may have to do not just two 
operational commitments, but multiple operational commitments. 
And, yes, maybe it is not in the traditional sense in terms of 
committing thousands of troops, but still for the troops that 
you commit for the Special Ops that are supported by intel and 
vice versa, you still have to have a supply chain. You still 
have to take care to make sure that you don't send people out 
there and leave them hanging, because that is not the strategy 
that we follow. God knows we have got all of these challenges 
with not just the Horn of Africa, the Iranians and others, but 
the Chinese. The Chinese have been very active.
    When you mentioned the Special Ops whose main duty is Latin 
America, I couldn't agree with you more. I found it the most 
ironic to be speaking Spanish on the border between Pakistan 
and Afghanistan with our Special Ops people who were telling 
me, you know, we need to do a better job of paying attention to 
Latin America. That is our hemisphere. That is where Chavez and 
all of those other actors are busily trying to undermine places 
like Mexico.
    A scenario that in the next election, which is next year--
remember we just dodged a major bullet with Obregon. We would 
have had Chavez's military advisors on our southern border, 
because that is what he had offered Obregon.
    This is not something that we do a hearing and move on, and 
I applaud you for thinking in these terms. But we need to do 
more. Maybe in a roundtable would be better because I get 
frustrated--and I was a chairman, so I always tried to do what 
the chairman does and say, I will ask my questions at the end, 
because 5 minutes is not enough when you are dealing with the 
kinds of complex issues that this case represents.
    Mr. Forbes. Will the gentleman yield?
    Mr. Reyes. Absolutely.
    Mr. Forbes. I absolutely agree with you, and one of the 
things that we proposed was just what you said, sitting in that 
type of roundtable. The ranking member did not want to do that 
at this point in time. But I hope that we will continue to do 
that because I agree with you 100 percent. These issues are 
vitally important for us to get at instead of trying to put our 
questioning in staccato mode where we really can't reach them. 
So I hope we can do that.
    Mr. Reyes. Thank you so much.
    Can I just make one more observation? There is one thing we 
learned in the two wars, Iraq and Afghanistan. We learned that 
we shouldn't ignore the first one so we can carry out the 
second one, number one. Number two, is we learned that 
contracting out is not a way to do that.
    I mean, I don't know, Mr. Chairman, how you have had input 
from our troops, but they are very frustrated that some of 
their former colleagues leave the service and go into 
contracting and earn two or three times more than they are 
earning because they go with the contractors. We have so many 
things like that that we have got to get our arms around. So I 
again thank you for doing this, and these are very--people with 
a lot of great insight, and we owe this system for the future 
more dialogue in terms of--like I said, a roundtable for me 
would work much better.
    Mr. Forbes. If the gentleman would agree, and the 
committee, the gentleman raises an excellent point. One of the 
things that we know that we have found is that we had 
difficulty fighting in both Iraq and Afghanistan at the same 
time. We moved out of Afghanistan into Iraq. It left us with 
some vulnerabilities in Afghanistan.
    And Congressman Reyes raises a good point about South 
America. What kind of vulnerabilities do you think that we are 
leaving exposed in South America because of our focus on other 
parts of the world? And maybe you could take just a quick 
moment to address those before we move to our next question.
    Mr. deLeon. So Mexico is the key. We owe the government in 
Mexico our attention as a national security issue. It is much 
broader than the immigration question. Secretary Clinton was 
right. We have a drug consumption problem on this side of the 
border that fuels a lot of lawlessness on the other side of the 
border because it is a pipeline.
    On the other hand, South America, you have got some very 
vibrant, energetic economies. Brazil is now a G-20 member 
trying to play a global role. That is another area where we 
have not really focused all that much on our mil-to-mil, but as 
Brazil, Chile, Argentina become global players in the economy. 
And then demographically in Central America we have got the 
issue of 18- to 22-year-olds and are there jobs for them, and 
do they become members of an economy, or do they get into the 
drug trade? The drug trade has been an attention point of this 
committee for 25 years, and it institutionalizes a series of 
very corrupting behaviors.
    Some of this is homeland security, but some of it--and the 
mil-to-mil relationship between the U.S. and Mexico has always 
been one of a struggle because of the history of the two 
militaries--but figuring out how to engage that dialogue 
looking south.
    Now, as we had an interdiction program in Colombia that had 
some successes, that had an impact on pushing more of the 
business into Mexico. Now as we focus on Mexico, some of the 
drug trade business gets moved to West Africa, and it creates 
different plans. But I think working with the government in 
Mexico as a partner, and then realizing that we have got 
problems on this side of the border that we have got to deal 
with, that is a start.
    Mr. Forbes. Now the chair recognizes the gentlewoman from 
Missouri, Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Yesterday, General Casey said that the Army's rotational 
force model allowed them to hedge against unexpected 
contingencies. Is this a reasonable assessment of the state of 
the force?
    Mr. deLeon. General Casey has worked hard to build in a 
rotation force. Since the end of the cold war, there has been a 
fundamental impact on our ground forces. Their optempo 
[operations tempo] has gone up much higher. During the cold war 
we would put our forces forward-deployed, in Korea, in Germany, 
and they would live there with their families, the schools were 
there, and you would go to a rotation, and it would be for 2 
years, 3 years.
    When the wall came down and we started to bring our troops 
home to garrison, we were deploying troops from the continental 
United States, and so they went from being forward-deployed to 
contingency-based, and so that started a lot of wear and tear 
on the ground forces in particular. And so it has developed 
over the years a different rotational philosophy. When you put 
someone forward-deployed in Korea, they are there for 2 years, 
but in a contingency operation we are deploying the forces 
regularly. We are sending them for a year, bringing them home, 
sending someone else. So it means you have got to have troops 
in the pipeline that replace the troops in the field, and when 
the troops in the field come home, we need to restore their 
quality of life with their families. We need, as Mackenzie 
said, to restore their training opportunities.
    So General Casey, as one of his marks of his tenure as 
Chief, has really been focused on a larger rotational base. It 
gets to the earlier question on the size of your ground forces, 
because not only do you have to have troops for the mission, 
you have to have the ability to rotate those troops once they 
deploy.
    Mr. Donnelly. Can I add a quick footnote to that. I think 
Rudy is quite correct; however, the effect has been essentially 
to transform the National Guard from a strategic reserve to an 
operational reserve, as General Chiarelli said earlier this 
week. The rotational model may be the least bad choice that we 
have, but the rotation base inside the Army, the brigade combat 
team system was designed to get people out to make units 
smaller and lighter. The result is that every time they deploy, 
they have to be plussed up by as much as 40 percent with 
enablers, and National Guard units have to step up onto that 
rotational conveyer belt at rates that were not anticipated 
when these force structure decisions were made.
    Mrs. Hartzler. Do you think that we can rapidly respond to 
an unplanned event should several of them occur simultaneously?
    Mr. deLeon. Well, one, you know, Mackenzie has raised the 
fundamental issue for us, and that is we have an All-Volunteer 
Force, and appropriately we compensate that All-Volunteer Force 
much differently than we did when we had a draft. We have now 
stretched an All-Volunteer Force through 10 years of combat. It 
has been a challenge to maintain the quality. It is more 
expensive, but no one would want to shortchange the people who 
are sacrificing so much for our country by serving.
    But the ground mission is a unique one because it is 
manpower-intensive. And so I think we as a country need to ask 
the fundamental question: If more and more ground contingencies 
are going to be the norm--I think we hope not, but the troops 
always need to be prepared--then we need to have a long-term 
debate about how we raise--you know, the constitutional mandate 
is to support a Navy and to raise an Army. So we should 
probably have a debate on how we raise an Army at some point.
    Dr. Mahnken. If I could, I would broaden this out, and I 
would say that the Joint Force, all of our capabilities give us 
all sorts of opportunities to hedge. And so my direct answer to 
your question would be it depends. It depends on the type of 
contingency that we would face. In some types of contingencies, 
you know, our naval and air capabilities, which are relatively 
less stressed than our ground capabilities, would be able to 
take the fore. Depending on the contingency, our allies would 
have an important role. If we were talking about a contingency 
on the Korean Peninsula, for example, South Korea and the 
Republic of Korea's Armed Forces, particularly their ground 
forces, would play a major role.
    This is a topic that OSD [Office of the Secretary of 
Defense] and the Joint Staff have to deal with constantly as 
they are looking at global force management and how to balance 
these risks on a day-to-day basis.
    Mrs. Hartzler. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. The gentleman from North Carolina, Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman and panel, for being 
here.
    I am going to do something I don't normally do. I am going 
to talk more than I am going to ask questions. I generally 
like, when we have expertise here, to go straight to questions. 
And I think it is the nature, Mr. Chairman, of what you have 
got set up here today, and I have been writing notes, writing 
notes, writing notes, and I finally quit writing notes. I think 
it is more of an indication of what we are doing here. And the 
direction that I have decided I really would like to ask in 
goes back a little bit to what Mr. Scott was talking about, 
what Mr. Reyes was talking about.
    It doesn't bother me as much that we are going to be hiring 
some people in the Pentagon if they are going to do the job, 
because we went through two major bills of procurement 
reforming when the bottom line was we keep coming up with these 
acquisition plans that don't come in on time, don't come in on 
budget, don't do what they are supposed to. We don't have 
oversight of what we want them to do, so we keep adding all the 
bells and whistles, and all of a sudden we wonder why the 
combat littoral ship, the expeditionary force for the Marines, 
the Army's experiment with the reforming to the combat 
futuristic models, whatever they were, on and on. And the F-35 
is how many years behind? The engine is 4 years behind. On and 
on and on, and we wonder why we have old equipment. Because the 
new equipment is not coming in. And as Mr. Reyes said, we have 
contractors who seem sometimes their intent is to maintain 
their position and not deliver the bang for the buck that the 
American taxpayers need.
    So I don't mind if we bring some of that expertise in. I 
also recognize that a lot of the expertise is retiring. If the 
people won't do the job, save the money, and predict what we 
need, and get it done. And that is where a lot of the our 
legislation went. And I think, Mr. Chairman, that is kind of 
the gist.
    And I think, Mr. Chairman, you may be the one that has 
pointed out that we go out and spend billions of dollars buying 
equipment, and we don't even own the intellectual rights to 
that equipment. We don't even get blueprints of that equipment. 
You know, we tell somebody to go spend billions of dollars and 
build it, then you get to keep it, and anytime we want 
something done, we got to come back to you as if you were the 
original possessor of that idea.
    So all of that said, I have some concerns in how we go 
about doing this. But the end result is we have got old 
equipment, we have lines not coming in on time, and we are 
shutting down lines. And I guess I have got finally a question.
    I believe one of the concerns that I have is that 
manufacturing has become kind of--something a lot of people 
don't think we need anymore in America. So if we have to ramp 
up, if we have the need to start rebuilding, where do we stand? 
What is our base industrial core strength in America in terms 
of if we had a higher than a normal response, how can we 
respond?
    Dr. Mahnken. Just two brief responses. First is I think you 
raise a number of excellent points on acquisition, and I would 
just commend to your attention the acquisition chapter of the 
QDR Independent Panel's report. The task force was chaired by 
retired Air Force General Larry Welch, who I think has a lot of 
wisdom in those pages as to how to improve the acquisition 
process.
    On the manufacturing base, I agree. I share that concern. 
If you look at the way America has traditionally fought its 
wars, we have been able to mobilize our industrial base, and we 
have been able to produce the materiel that we need in wartime. 
That base in a number of areas, whether it is shipbuilding, 
aircraft, even logistics and a lot of munitions and 
expendables, I think is not where it was. And I do think we 
need to think strategically about that, about that industrial 
base.
    I mean, there was a time not too many years ago where we 
had a shortage of small-arms ammunitions because of some 
problems with a couple of the manufacturers' manufacturing 
facilities. That is relatively simple stuff. We could find 
ourselves in a situation where we need to replenish more 
complex items in the inventory. So I think that is an excellent 
observation.
    Mr. Kissell. Well, Mr. Chairman, I think you have set a 
good tone for what this subcommittee can be looking at. And one 
last specific question. That red light just went on. Do we need 
the Expeditionary Fighting Vehicle? If anybody wants to join? I 
am on Air, Land and this subcommittee, and I am hearing so much 
back and forth. Is that something that we need?
    Mr. Donnelly. My view would be yes. Mackenzie earlier said 
we need a capability that is something like this. The marines 
have to get from their amphibious ships ashore somehow. They 
can't all fly in a V-22. They can't all ride in an LCAC 
[Landing Craft Air Cushion hovercraft] or walk ashore. And once 
they get ashore, they need mobility and firepower. And the way 
to get from ship to shore is either you plow through the water 
like an AAAV [Advanced Amphibious Assault Vehicle] currently 
does, or you get on top of the water like a speedboat, the way 
the EFV was supposed to do.
    The idea that we won't need forcible entry capabilities in 
the future, particularly in a Pacific contingency, again 
strikes me as nonsensical. When you are talking about the anti-
access question, what is vulnerable really are the ships 
themselves. So, you know, you can put all of these requirements 
in a blender, and some version is going to come out. And if it 
is going to do what you want it to do, it is going to look like 
an EFV; or you are going to have to sacrifice the speed, the 
ground mobility, the firepower, the ability to carry a full 
squad; or you are going to have to come in close to shore to 
disembark the marines. Anybody who has been in an AAAV, the 
first briefing you get is: Puke into your helmet so it doesn't 
clog the bilge that way. So you can pay us now, or you can pay 
us later.
    Ms. Eaglen. If I may, quickly. That is correct. So it is 
not about the EFV. You can call it the ACV, the Amphibious 
Combat Vehicle, but they need something. So the question I 
would argue for Congress and for the taxpayers since they 
funded this is when you look at how you build a major system 
like this, it is roughly broken down into design, development, 
and then production where you are actually turning them out. 
Congress has to ask, and all of you in this room in particular, 
do we finish that last marginal production at this point 
because it has been under development for over a decade, and we 
have spent--I don't know the exact number--I think over $10 
billion so far, or do you make that a sunk cost and you restart 
the ACV?
    The government should be leveraging the taxpayer investment 
in the development up to this point, I would argue. So even if 
you don't need the EFV, and you want to call it ACVX, the point 
is to keep all the investment in hand so you don't throw 
overboard the taxpayer money spent to date.
    Mr. Forbes. Thank you.
    Now Mr. Gibson from New York.
    Mr. Gibson. Thanks, Mr. Chairman.
    I thank the panelists here today. I appreciate your 
experience and your scholarship. I also note Ms. Eaglen's 
previous experience for the good people of New York 20 I now 
represent, and I appreciate your service there.
    I would like to pick up on a point Mr. Donnelly mentioned 
earlier about lacking guidance and the mismatch between 
requirements and resources. I concur with that assessment. And, 
of course, just the central question for today's hearing, are 
we ready, begs the question: Ready for what?
    Now, you know, from an a priori statement, I don't believe 
that we can afford to start a war that we don't finish and we 
don't win. We have to do that. I supported the surges; I fought 
in the surge in Iraq. And clearly I think it is a consensus, we 
are going to protect this cherished way of life, and we are 
going to make sure that we resource us to do just that.
    There are a variety of opinions as to exactly what that 
means. And looking towards 2015 and beyond and the kind of 
force posture, the structure, and how we are going to lay down 
forces and command and control, I really come at this from the 
standpoint that we are asking too much of our military. And I 
want to go to the point earlier made as far as the potential 
groupthink, of the QDR, and the role the independent panel can 
play, and I am curious to know are there divergent viewpoints 
in any arguments that resonated that we should take a look at 
how we array our Armed Forces both in terms of posture, command 
and control, the requirements thereof, discussions that came in 
the QDR and independent panel, and your assessment as to 
whether or not you think we have a system that allows for 
alternative viewpoints?
    Mr. deLeon. Well, Mr. Gibson, I think first the alternative 
viewpoint in our process comes from the Congress, and so that 
is the institutional role. The President is the Commander in 
Chief. Most of us have taught courses on this. The President is 
the Commander in Chief, and the Congress provides for the 
common defense in terms of the raising of the Army and 
supporting a Navy, and the rules and regulations thereof. So 
this is the unique relationship that every Administration and 
every chairman of the committee and chair of the subcommittee 
have to deal with and come to grips.
    And so it is we have spent a morning talking about the 
requirements. We are sitting on this side of the table, and we 
are no longer responsible for the resource generation. When we 
served in our various offices, we had to have that balance. And 
that is where I think the challenge and the debate comes.
    Looking at each of these situations, the Pacific, the 
troops in Iraq and Afghanistan, you know, I have always felt 
that when you have fighting troops in the field, they become 
the number one priority.
    I think Secretary Gates told the QDR panel one of his 
issues in the Pentagon was that the Pentagon was too quick to 
get into the next budget instead of focusing on the troops in 
the field and what are their requirements. And you are correct; 
once we start, your moral obligation is to the troops in the 
field.
    We probably need a better, more detailed process at the 
front end when we decide to deploy the troops. With an All-
Volunteer Force and supplemental appropriations, it is very 
easy to do. If you look back at FDR on the Lend-Lease, these 
were votes that went one way or the other. On Desert Storm it 
was a very close vote not in the House, but in the Senate, and 
lots of questions back in 1991 about the first ground combat 
the country was considering. And so it was good in terms of 
what were we asking the force to do, what would we think 
victory looked like, things like that.
    So we probably owe a front-end process, because Iraq and 
Afghanistan have been a bit unique because we really have 
funded those through emergency supplementals. That has been a 
departure in our history in terms of how we have provided for 
the common defense. And then with the Volunteer Force, these 
are folks that are well-trained, ready to go, highly 
professional, and, whether intended or not, the Guard has 
stepped in and really made an enormous contribution to the 
country.
    So I think it is easier to define the requirements and look 
to the future than it is to engage in that discussion on how 
many resources are we now prepared to provide. In terms of 
actual dollars spent, we have gone through a decade where we 
have spent more than we spent during the Reagan 1980s. Now, in 
terms of the economic measure of that, it was 7 percent GDP in 
the 1980s; it is 4.5 percent in this decade. So the economy has 
historically grown and is larger.
    But I think deciding on the resources, deciding on what the 
priorities are and how you balance, one of the points that Tom 
Mahnken in our staff on force structure wrote is that we 
constantly add to the missions of the force, but we really 
don't increase the size of the force. We increase the budget, 
but we have wrapped around a lot more contracting around the 
Active-Duty men and women than we had, for example, during as 
recently as Desert Storm.
    So that is, I think, that issue of the balance between 
requirements and resources. Your subcommittee is at the heart 
of that in deciding what is right and what is appropriate.
    Mr. Donnelly. I will try to be brief.
    There was certainly a lot of spirited discussion amongst 
the panelists. At the same time, I am struck about how at the 
end of the day most of those got worked out. So people from a 
wide variety of backgrounds very much came together on a core 
set of conclusions.
    And there was a lot of discussion about what is an 
appropriate military mission and what should be the job of 
other agencies. I am not sure that we have fully answered that, 
but we certainly did talk about it a lot.
    I would just conclude by saying it has been more than 20 
years since the Berlin Wall fell, and we haven't gotten to 
those questions that Rudy described. They have been out there, 
but we have been looking through the wrong end of the 
telescope, if you would, and having arguments about how many 
tanks and how many ships, without really thoroughly addressing 
this question of what is it that we really need to be doing.
    Again, I think the panel felt that was more than we could 
really--had the time or the resources to address. And I would 
really commend this idea of, you know, a panel of wise men or 
whatever that could be both a resource for the executive and 
the legislative branch. It would just be a focus for discussion 
of these issues, because, you know, it is a garbage-in, 
garbage-out process. If you can't define what the yardstick 
would be, any measurement of readiness is as good as the other.
    Mr. Gibson. Mr. Chairman, if I could have 30 seconds to 
wrap that up.
    Mr. Forbes. Go ahead.
    Mr. Gibson. Thanks, Mr. Chairman.
    I appreciate the commentary here, the testimony. And, you 
know, to me, I think these a priori questions, now is the time 
to be asking--it is really overtime to be asking it. But as we 
look towards the backside of Iraq and Afghanistan, we should 
ask some fundamental questions: Who are we as a people? I think 
we would agree we are a Republic, but when you look at the 
facts, we look like an empire. We are laid down all over the 
world. We have command and control that reaches all over the 
world. I am not convinced we are any safer by doing it that 
way.
    Something that strikes me as wrong, that when there is an 
event overseas, the number one seat in protocol goes to the 
combatant commander rather than the ambassador. I think we 
should take a look about the way that we array our forces and 
how we look at a whole government approach. We are talking 
about protecting our cherished way of life here, but I think 
there are alternative visions and approaches that I am not 
convinced have been fully developed and at least compared and 
contrast.
    So thank you very much for your testimony, and I look 
forward to working with you as we go forward.
    Mr. Forbes. Thank you, Chris.
    We just have a couple of questions left. Thank you so much 
for your patience.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. I do have a couple 
of questions, but I will enter them into the record, and 
hopefully the witnesses will be able to answer them.
    And also on the subject of the roundtable discussions, I 
have thought about that, and I think it is a good idea. So I 
look forward to that. And Mr. Reyes also mentioned to me that 
he thought off-site visits would be very valuable. Thank you.
    Mr. Forbes. Thank you so much, Madeleine.
    If I could just close with two questions, and I know some 
of our Members may need to leave, but I deferred these.
    We are constantly trying to get the balance between whether 
or not the budget is driving our defense strategy or our 
defense strategy is driving our budget. We have yet to have 
anyone from the Department of Defense to acknowledge that the 
budget is driving the strategy, as we might appreciate.
    There seems to me to be three components that we are always 
talking about, but we blend them quite a bit. One of them is 
something that Mr. Gibson was raising: What is our strategy? 
Are we asking the right questions for the strategies that we 
need?
    The second one is what we saw with the helicopters we had 
up at the beginning of this hearing, which is: Are we making 
the right assessment of our ability to meet that strategy?
    But the third one is the assessment of what part of the 
strategy can we afford to implement?
    We are always concerned here that we are not getting those 
three in balance. How do we ferret out and make sure we are 
really hearing the strategy and not somebody's filtering of the 
strategy through the budget? Do you have any suggestions, any 
wisdom for us as we move down that road of how we make sure 
that we are dividing those three so that we are getting this 
right?
    Mr. Donnelly. Well, I would just go back to the readiness 
reports that the committee did back that Rudy referred to 
earlier. Obviously the point of departure is the information 
that you get from the Department, but it is important to sort 
of go beyond that and ask, well, are these the right 
measurements? And I think one of the things we found was that, 
particularly looking outside of the spotlight in terms of 
looking at units that were not immediately deployed, if you 
look at units that are in the trough of unreadiness, that is 
where you kind of get a better assessment of the problems that 
beset the force in terms of manpower filler or equipment 
readiness or in the National Guard, for example.
    But to go to the question of affordability, I keep using 
Rudy as a point of reference, but I think he was quite right. 
In the absolute, or as a slice of our national wealth, our 
military commitments are at pretty historic low, at least a 
post-World War II low, but the nature of the government, and 
what the government spends its money on, and the nature of our 
society has changed. So probably the largest contributor to our 
long-term strategic readiness is whether we can get the 
government's fiscal house in order, I would say.
    Mr. Forbes. Mr. deLeon.
    Mr. deLeon. In the mid-1980s, this committee was 
instrumental in passing the Goldwater-Nichols Act. Back to that 
setting of priorities and how to match the budget with the 
strategy and, most importantly, the strategy with the budget, 
you now have two very independent sources of information. You 
have the commanders from the field. You have General Mattis and 
Admiral Olson this afternoon upstairs in the full committee. So 
they are in the field, and they are at the front of the spear. 
And so their mission is are we ready to execute the missions 
that the command authority has asked them to do today.
    You have another group, the Joint Chiefs, and under 
Goldwater-Nichols and the Title X, their job is to organize, 
train and equip, and not only today, but to be thinking about 
where we will be in 2015, in 2020, and 2025.
    And then you have got the committee, which I think needs to 
ask the questions of where do we see the country--because we 
are still operating, in terms of the sizing of the military, 
under many of the assumptions that are still derivative of the 
cold war, and yet we are in an economic period where the 
economic power is much less concentrated.
    My colleague and I, who is with me today, we were in a 
conference, and we were in Beijing a year ago. And the thing 
about the economists on the Chinese side is that they not only 
have been trained in the United States, but they are tenured 
professors of economy at Stanford and Princeton and Johns 
Hopkins, so they know what they are talking about. But their 
point was during the cold war, we wanted to be on your side. 
There were only two choices, and your side was the side that 
the whole world wanted to be on.
    And now the economic drivers are much more diffuse. You 
have got a Middle East that is dominated by 18- to 22-year-old 
young men who don't have jobs. You have got an Asia which is 
focused on manufacturing excellence and how you continue to 
grow economic capability and economic influence; a Europe which 
is sort of status quo; and then America which has been the 
great leader of the global coalition.
    But the broader issues that I think--it has changed much 
since Presidents Truman and Eisenhower through President Reagan 
dealt with a set of issues. The Presidents since then are 
dealing with a much different kind of threat, a much different 
kind of world, but yet still people look to the United States 
on the national security side for the leadership. So I think 
that is your challenge.
    Ms. Eaglen. Verbally, you are right. The Department isn't 
going to acknowledge or admit the reality that most of their 
decisions are budget-driven, but practically we all know that 
that is true. How do we know that? They told you indirectly. So 
if you go back through the hearing transcripts from just the 
last 3 years, because the 2010 budget was really the pivotal 
year where we restructured the investment portfolio--the 
Secretary did--for the armed services and proposed killing over 
50 major programs that have been on the books some for two 
decades, and when you go back in the posture hearings and 
everything from combat search-and-rescue helicopters for the 
Air Force, to the F-22, also for the Air Force, to even just 
recently the EFV, all of them said, I need this, and I want 
this. We can't afford it. What they are telling you is it is 
just a budget--exactly what they are saying, it is purely 
budget-driven.
    Now, practically, the tools that you have available to you 
are not, you know, archaic. They are still very valuable. And I 
would just take you back. I'd applaud you for your conversation 
with the three stars, as we are calling it, bringing over those 
less than sort of the same old faces. The dialogue on that sort 
of upper middle management is important to get outside of this 
groupthink. Field hearings, I found, are very instrumental in 
the work that you do to get outside of Washington; of course, 
CODELs [congressional delegations] as well.
    Senator Dole's former MLA [military legislative assistant] 
just recently put an op-ed out in the Washington Times, and 
basically it said--she had asked the current Chairman of the 
Joint Chiefs, how are you going to do everything--to Mr. 
Gibson's question--with the money that you are getting and what 
we are asking you to do, and it is too short? And he said in 
this one-on-one: How do I give you an honest answer without 
losing my job? Now, of course, it is in the public domain. But 
my point is that they will tell you perhaps in just various 
venues.
    And then lastly I would applaud the full committee chairman 
Mr. McKeon for continuing the tradition for asking for the 
military's unfunded requirements list. The challenge is that 
the Secretary has upended that process by requiring OSD vet 
those lists. And I would encourage you to push back, because 
obviously they are night and day in terms of what they look 
like now. Yes, nobody is going to ever say, you have the whole 
world at your feet and you can buy anything you want, but they 
were an instructive benchmark of what the service thought they 
needed in order to accomplish everything. It doesn't mean that 
you were going to give them that. But those were very valuable 
tools before 2010 until the Secretary took them over in 
highlighting to Congress some of the things they need to buy 
and are unable to do so.
    Dr. Mahnken. Mr. Chairman, I think this committee offers an 
important independent venue for assessing risk, and I think 
really what we have been talking about throughout this session 
really in different ways is risk and ways that you balance 
risk. I mean, in the old days we used to be able to throw money 
at it and buy down risk. We can do that to some extent, but I 
think we are much more in a situation where we need to accept 
some forms of risk, but we need to be cognizant that we are 
doing so.
    I think what my colleagues have been saying is it can be 
difficult to get a straight answer as to what the real risks 
are. And so I think groups like the QDR Independent Panel and 
things like this hearing are a great venue to get other voices 
and other assessments of risk that can then help you make the 
decisions as to how we deal with that risk.
    Mr. Forbes. Thank you.
    Ms. Bordallo has, I think, a follow-up question.
    Ms. Bordallo. No.
    Mr. Forbes. You are done?
    If not, then I just want to thank all of you for the 
service you have done to your country in so many different 
venues, coming in here, the great work that you did on that 
panel. And thank you for spending this morning with us and help 
bring us up to speed, and we look forward to picking your 
brains down the road as we go. So thank you all very much, and 
we are adjourned.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 3, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2011

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. The military services have adopted a rotational 
readiness construct which enables deployed and deploying forces to 
obtain the highest level of readiness, while non-deployed forces are 
left without critical personnel and equipment and are, in most cases, 
unable to train due to the shortages of resources. While I understand 
that this model is ensuring we have ready forces for Afghanistan and 
Iraq, what are the strategic implications to the force?
    Mr. deLeon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    Mr. deLeon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The fiscal year 2012 budget request reflects 
shortfalls in depot maintenance requirements across the Department. How 
much risk is this to the readiness of our force? What is the impact of 
the delay in the FY11 appropriation and the depot maintenance 
activities of the services?
    Mr. deLeon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The QDR report identified force structure 
requirements and capabilities to deal with challenges and threat to 
U.S. interests. What force readiness levels did the QDR team assume in 
its calculations? Did they assume all of our forces were fully ready or 
did they project an anticipated level of readiness over the next few 
years and use that in their model? Did the QDR presume all of our 
prepositioned stocks were fully reset, in place and ready for issue?
    Mr. deLeon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In your opinion, are we ready? Will we be ready? If 
not, what should we be doing?
    Mr. deLeon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Your statements also focus on the strategic use of 
the military and I agree with you--it is indeed difficult to measure 
military readiness without knowing what the measure of effectiveness 
may be to declare ``strategic readiness.'' We as a nation have been 
challenged for the past decade. We have been fighting tactically and 
developing a military force that is more battle-hardened than perhaps 
they ever have been at any other time in American history. Indeed every 
branch of service has been involved in combat operations abroad and has 
developed skills they did not necessarily posses before September 11, 
2001. The military has expanded their foreign language capacity, 
broadened their general cultural awareness, refined their hand-to-hand 
and urban combat skills, refined their civil-military relationship 
building, and a bevy of other skill sets. So my question for you is, do 
you believe the past ten years of military experience (both in 
personnel and in weapons systems), technological ingenuity and design, 
and our ability to realize massive military mobilization in the Middle 
East be parlayed into a ready force that is able to meet the future 
strategic threats? Will we be able to protect our interests in space, 
ensure in unimpeded access to the high seas, and protect our homeland? 
How would you recommend we begin preparing our military to position 
them for success in 2030 and beyond?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The military services have adopted a rotational 
readiness construct which enables deployed and deploying forces to 
obtain the highest level of readiness, while non-deployed forces are 
left without critical personnel and equipment and are, in most cases, 
unable to train due to the shortages of resources. While I understand 
that this model is ensuring we have ready forces for Afghanistan and 
Iraq, what are the strategic implications to the force?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Ms. Bordallo. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The fiscal year 2012 budget request reflects 
shortfalls in depot maintenance requirements across the Department. How 
much risk is this to the readiness of our force? What is the impact of 
the delay in the FY11 appropriation and the depot maintenance 
activities of the services?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The QDR report identified force structure 
requirements and capabilities to deal with challenges and threat to 
U.S. interests. What force readiness levels did the QDR team assume in 
its calculations? Did they assume all of our forces were fully ready or 
did they project an anticipated level of readiness over the next few 
years and use that in their model? Did the QDR presume all of our 
prepositioned stocks were fully reset, in place and ready for issue?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In your opinion, are we ready? Will we be ready? If 
not, what should we be doing?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Expanding, indeed even maintaining a large industrial 
military base is of course very important but also very costly. The 
military has to continue to invest in people while also developing new 
and improved weapons. What changes do you think we can make in the cost 
of military readiness that would encourage retention of our best and 
brightest while sustaining the long term growth of the military 
industry?
    Ms. Eaglen. You are correct that the defense spending priorities 
must carefully maintain a balance between strengthening the all-
volunteer force and providing those in uniform with modern weapons 
systems.
    Congress should be concerned about the general loss of innovation 
in defense-related research and development. Policymakers must take 
care to ensure the Department of Defense is not giving away critical 
skill-sets in the shrinking defense industrial base that will be needed 
to imagine and build the next generation of platforms and capabilities 
the U.S. Navy will require in relatively short order relative to 
acquisition timelines and traditional build cycles. The critical 
workforce ingredients in sustaining an industrial base capable of 
building next-generation systems are specialized design, engineering, 
and manufacturing skills. Already at a turning point, the potential 
closure of major defense manufacturing lines in the next five years 
with no additional scheduled production could shrink this national 
asset even further.
    As the cost of training has grown the past decade, many of the 
services are increasingly relying upon simulations in lieu of live-fire 
exercises when both are required. Defense leaders should more regularly 
sponsor regular and realistic training in degraded environments. Forces 
must be capable of operating in live-fire exercises without access to 
the U.S. overhead architecture of space and satellite assets. The U.S. 
military should know how it will operate without access to U.S. forward 
bases, as well as allied and foreign permissive airspace.
    Congress should not exclude itself from the need to engage in the 
participation in wargaming exercises. These exercises would not be for 
Congress to join military members simulating combat but rather to react 
to proposed scenarios of varying depth and scope and determine the 
policy implications of those decisions and lessons learned.
    Ms. Bordallo. The military services have adopted a rotational 
readiness construct which enables deployed and deploying forces to 
obtain the highest level of readiness, while non-deployed forces are 
left without critical personnel and equipment and are, in most cases, 
unable to train due to the shortages of resources. While I understand 
that this model is ensuring we have ready forces for Afghanistan and 
Iraq, what are the strategic implications to the force?
    Ms. Eaglen. [The information was not available at the time of 
printing.]
    Ms. Bordallo. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    Ms. Eaglen. Since 2003, the Navy and Air Force have taken on new 
responsibilities on the ground in both Afghanistan and Iraq, in many 
cases serving in lieu of soldiers to relieve the strain on the U.S. 
Army. All the services are under stress, wearing out equipment much 
more quickly, and experiencing reduced readiness levels across the 
board. The Air Force and the Navy, however, have had to live with flat 
or declining budgets for the past several years. As a result, 
modernization is the primary budget casualty.
    According to the Chief of Staff of the U.S. Army, the service is 
slowly coming back into balance and achieving healthier deployment-to-
dwell time ratios. However, the reliance upon sailors and airmen is 
unlikely to decline significantly in this area of operations before 
2014. This may prove to be unhealthy for the Navy and Air Force given 
the potential long-term damage to individual sailor and airman 
promotion rates and military career specialties. Supplementing ground 
forces indefinitely threatens to overstress non-ground forces and their 
equipment and harm training and specialization. Congress should 
exercise stringent oversight of this practice to ensure that no good 
deeds are being inadvertently punished.
    Ms. Bordallo. The fiscal year 2012 budget request reflects 
shortfalls in depot maintenance requirements across the Department. How 
much risk is this to the readiness of our force? What is the impact of 
the delay in the FY11 appropriation and the depot maintenance 
activities of the services?
    Ms. Eaglen. The negative impact on defense spending plans, 
programs, and maintenance has been tremendous due to the lack of a 
defense appropriations bill for fiscal year (FY) 2011 and the 
Department of Defense receiving significantly less funding that was 
requested as part of the President's defense budget request for FY11. 
The result will be that defense programs will end up costing more money 
as schedules slip and procurement rates are reduced.
    A sample list of planned maintenance, upgrades, and depot work 
affected by the defense budget uncertainty for the current fiscal year 
includes:

    <bullet>  Army officials are currently lacking funds to purchase 4 
new transport helicopters that are employed extensively in overseas 
operations in Afghanistan.
    <bullet>  The Army currently lacks funds to refurbish HMMWVs.
    <bullet>  Temporary furloughs and possible shut down of production 
lines at Texas' Red River Army depot and Pennsylvania's Letterkenny 
Army depot.
    <bullet>  Shipyard repairs and maintenance are being canceled.
    <bullet>  Navy and Army leadership have are scaling back training 
for sailors and soldiers.
    <bullet>  The Army has imposed a temporary hiring freeze for its 
entire civilian workforce and Navy leaders have said that 10,000 jobs 
are at risk.

    The defense spending levels proposed in recent spending bills 
(continuing resolutions) would eliminate the DoD's proposed purchasing 
power growth of just 1.8 percent for 2011. This is essentially a double 
hit on defense spending because the secondary impact means that the 
military would be able to buy even less defense for the out years than 
it plans on the books today.
    Congress should ask all the services to report back on the impact 
of the FY 2011 defense budget delays and what plans and programs will 
be upended, altered, or affected by the reduced funding provided to DoD 
for the remainder of the fiscal year.
    Ms. Bordallo. The QDR report identified force structure 
requirements and capabilities to deal with challenges and threat to 
U.S. interests. What force readiness levels did the QDR team assume in 
its calculations? Did they assume all of our forces were fully ready or 
did they project an anticipated level of readiness over the next few 
years and use that in their model? Did the QDR presume all of our 
prepositioned stocks were fully reset, in place and ready for issue?
    Ms. Eaglen. Policymakers should understand that the number and 
variety of threats challenging U.S. interests are growing. The 
Congressionally-commissioned Quadrennial Defense Review Independent 
Panel report identifies key global trends that will affect America, 
including:

    <bullet>  Islamist extremism and the threat of terrorism,
    <bullet>  The rise of new global powers in Asia,
    <bullet>  The continued struggle for power in the Persian Gulf and 
the greater Middle East,
    <bullet>  An accelerating global competition for resources, and
    <bullet>  Persistent problems from failed and failing states.

    Yet the Pentagon's Quadrennial Defense Review (QDR) does not 
adequately identify the panoply of risks confronting the United States. 
Still beyond the challenges that defense planners and policymakers can 
predict are the unforeseen challenges. History indicates that as states 
destabilize and as rising powers see weakness among Western-allied 
democracies, international crime, terrorist safe havens, piracy, 
oppression, and lawlessness will increase. Such drastic scenarios may 
seem unrelated, but as the QDR Independent Panel report notes, ``the 
risk we don't anticipate is precisely the one most likely to be 
realized.''
    Ms. Bordallo. In your opinion, are we ready? Will we be ready? If 
not, what should we be doing?
    Ms. Eaglen. It has been said that America waits for wars to become 
prepared for them. Such a pattern, as evidenced by repeated procurement 
holidays in the twentieth century, leads to repeated surges in spending 
that are more expensive than continued, sustained outlays. The best and 
most cost effective way to preserve the military's core capabilities, 
high readiness levels, our domestic production, and a sound defense 
budget is to keep the military in a constant state of health, ever 
ready to defend this country from both known and unknown threats.
    Over the past two years, policymakers have cut plans and programs 
which are critical to recapitalizing the legacy fleets of all the 
military services. These recent defense cuts come on top of the 
military's dramatic reduction that began in the early 1990's. The size 
of the U.S. Navy has been cut by half since then, and today it is the 
smallest it has been since 1916.
    The U.S. military is already too small and its equipment too old to 
fully answer the nation's call today, much less tomorrow. The U.S. has 
largely failed to recapitalize its military in a generation, leading to 
an ever-growing gap between what the U.S. military is asked to do and 
the tools it has to accomplish their missions.
    High readiness levels require robust National Guard and Reserve 
forces that can provide national surge capacity when needed, and it 
entails investment in a wide range of dual-use, multi-mission 
platforms. Further, the U.S. should not only prepare for the full 
spectrum of risks, but also maintain substantial safety and 
technological superiority margins. Seeking to have ``just enough'' of 
any important capability would be foolish.
    To keep its global edge and to develop the abilities to defeat 
shifting threats ranging from IEDs to ICBMs, the U.S. military must 
maintain, modernize, and ultimately replace old weapons while 
simultaneously researching, designing, testing, and fielding next-
generation systems. The average ages of most major weapons systems in 
use are startling, and many next-generation programs are being 
eliminated. Congress has acceded to most of the Administration's 
defense budget requests and voted to terminate or truncate more than 
one dozen major defense programs in the 2010 defense bills--
predominantly for budgetary rather than strategic reasons. As a result, 
the military will lose vital capabilities along with the potential to 
develop them later as defense industries shut down production lines and 
hemorrhage skilled workers.
    Ms. Bordallo. The military services have adopted a rotational 
readiness construct which enables deployed and deploying forces to 
obtain the highest level of readiness, while non-deployed forces are 
left without critical personnel and equipment and are, in most cases, 
unable to train due to the shortages of resources. While I understand 
that this model is ensuring we have ready forces for Afghanistan and 
Iraq, what are the strategic implications to the force?
    Dr. Mahnken. The rotational readiness construct has allowed the 
U.S. armed forces to wage successfully two protracted conflicts in Iraq 
and Afghanistan. Of course, optimizing the armed forces on winning the 
wars we are in creates trade-offs. Because of the current focus on 
counterinsurgency, some parts of the U.S. armed forces are less ready 
to respond to other contingencies. Moreover, proficiency in areas not 
related to counterinsurgency has declined. As the United States reduces 
its presence in Iraq and Afghanistan, the Defense Department will both 
need to preserve its expertise in irregular warfare and rebuild its 
competency in conventional warfare.
    Ms. Bordallo. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    Dr. Mahnken. The long-term use of sailors and airmen to meet ground 
force requirements in Iraq and Afghanistan has augmented our ground 
strength and improved our effectiveness in those conflicts. The 
practice has also reduced the readiness of the Navy and Air Force. Such 
a reduction in Navy and Air Force readiness would appear to be 
acceptable in the short term. However, it does raise the level of risk 
should another contingency occur.
    The availability of Individual Augmentees from the Navy and Air 
Force--to man Provincial Reconstruction Teams, for example--has allowed 
the Army in particular to avoid making some difficult but vital 
personnel, training, and education changes to optimize itself to carry 
out such important irregular warfare missions. In my view, the Defense 
Department has yet to fully embrace the need to organize, train, and 
equip for irregular warfare missions, despite the persistent and 
sincere efforts of civilian and military leaders over the past five 
years. This is because changing the culture, values and training of the 
U.S. armed services is very difficult, a project that is likely to last 
years or decades rather than months.
    Ms. Bordallo. The fiscal year 2012 budget request reflects 
shortfalls in depot maintenance requirements across the Department. How 
much risk is this to the readiness of our force? What is the impact of 
the delay in the FY11 appropriation and the depot maintenance 
activities of the services?
    Dr. Mahnken. I am not qualified to provide an informed answer to 
this question.
    Ms. Bordallo. The QDR report identified force structure 
requirements and capabilities to deal with challenges and threat to 
U.S. interests. What force readiness levels did the QDR team assume in 
its calculations? Did they assume all of our forces were fully ready or 
did they project an anticipated level of readiness over the next few 
years and use that in their model? Did the QDR presume all of our 
prepositioned stocks were fully reset, in place and ready for issue?
    Dr. Mahnken. The Quadrennial Defense Review Independent Panel 
assumed that the United States would continue to a rotational readiness 
construct and that U.S. forces would remain in both Iraq and 
Afghanistan in large numbers through at least 2015, and in smaller 
numbers thereafter.
    The Panel did not assume that our prepositioned stocks were fully 
reset. Rather, in our deliberations we identified the need to reset 
those stocks as a priority.
    Ms. Bordallo. In your opinion, are we ready? Will we be ready? If 
not, what should we be doing?
    Dr. Mahnken. The United States is ready to wage and win the wars 
that we are in. Because of our experience in waging counterinsurgency 
campaigns, we will also remain ready to do so for some time in the 
future. I am concerned, however, that our readiness to respond to 
higher-end contingencies, such as those that could involve China, has 
been declining for some time. The United States is not fully ready to 
respond to a catastrophic event in the homeland or cyber attacks. The 
Quadrennial Defense Review Independent Panel contains a number of 
recommendations for increasing U.S. readiness to respond to such 
contingencies.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HANABUSA
    Mrs. Hanabusa. My question is about the timeline of the Futenma and 
the Guam relocation. Are you concerned that the agreed timeline of 2014 
will be expanded thereby adversely affecting our readiness in the 
region?
    What is PACOM's plan B or default plan should the U.S. and Japan 
fail to reach an agreement on a relocation plan in time for a 2014 
relocation?
    Mr. Donnelly. [The information was not available at the time of 
printing.]
    Mrs. Hanabusa. Are you aware if the long term planning of rotations 
includes Army Chief of Staff Gen. George G. Casey Jr.'s plan to 
increase Army dwell time to one year deployed to three years dwell time 
for active duty and one year deployed to five years dwell time for 
reservists (as he stated last year)? How do you anticipate this will 
impact readiness?
    Ms. Eaglen. U.S. Army leadership is currently implementing its plan 
to restore the force to better health and balance by increasing the 
dwell times for active duty personnel and members of the Reserve 
Component. By authorizing and funding additional end strength for the 
Army during the past decade, Congress has helped increase the dwell 
time for soldiers. The dwell time for soldiers will continue to grow 
over the next several years. Compared to a few years ago, soldiers are 
now spending an average 18 months at home in between deployments, up 
from 15 months. General Casey has said recently that those who deploy 
after October 2011 can then expect two years of dwell time at home 
after their combat deployment. Indicators show the Army is on track to 
achieve its dwell time goals by 2013.
    This is important to help the Army maintain healthy retention 
levels as the economy begins to rebound. It is also very important to 
help military families have more notification time and predictability. 
As General Casey told the Senate Armed Services Committee in March 
2011, Army families are the most brittle part of the force today. 
Keeping healthy recruiting and retention levels will require support 
for Army leader efforts to continue increasing dwell time for 
servicemembers.
    Congress will need to carefully weigh budget proposals by Secretary 
of Defense Robert Gates to cut ground forces' end strength in 2015. It 
is unclear if this will save any money and could negatively impact 
force readiness and morale.

                                  <all>

</pre></body></html>
